<html>
<title> - QUITTING HARD HABITS: EFFORTS TO EXPAND AND IMPROVE ALTERNATIVES TO INCARCERATION FOR DRUG-INVOLVED OFFENDERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
  QUITTING HARD HABITS: EFFORTS TO EXPAND AND IMPROVE ALTERNATIVES TO 
               INCARCERATION FOR DRUG-INVOLVED OFFENDERS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2010

                               __________

                           Serial No. 111-143

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-558                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       DAN BURTON, Indiana
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
PETER WELCH, Vermont                 ------ ------
BILL FOSTER, Illinois
MARCY KAPTUR, Ohio
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 22, 2010....................................     1
Statement of:
    Burch, James H., II, Acting Director, Bureau of Justice 
      Assistance, Office of Justice Programs, U.S. Department of 
      Justice; and Benjamin B. Tucker, Deputy Director for State, 
      Local and Tribal Affairs, Office of National Drug Control 
      Policy.....................................................    10
        Burch, James H., II......................................    10
        Tucker, Benjamin B.......................................    21
    Hawken, Angela, Ph.D., associate professor of economics and 
      policy analysis, School of Public Policy; John K. Roman, 
      senior researcher, Justice Policy Center, Urban Institute; 
      Douglas B. Marlowe, J.D., Ph.D., chief of science, law and 
      policy, National Association of Drug Court Professionals; 
      Daniel N. Abrahamson, director of legal affairs, Drug 
      Policy Alliance; Melody M. Heaps, president emeritus, TASC, 
      Inc.; and Harold A. Pollack, Helen Ross professor, 
      University of Chicago School of Social Science 
      Administration, faculty chair of the Center for Health 
      Administration Studies.....................................    52
        Abrahamson, Daniel N.....................................   108
        Hawken, Angela...........................................    52
        Heaps, Melody M..........................................   119
        Marlowe, Douglas B.......................................    88
        Pollack, Harold A........................................   131
        Roman, John K............................................    65
Letters, statements, etc., submitted for the record by:
    Abrahamson, Daniel N., director of legal affairs, Drug Policy 
      Alliance, prepared statement of............................   110
    Burch, James H., II, Acting Director, Bureau of Justice 
      Assistance, Office of Justice Programs, U.S. Department of 
      Justice, prepared statement of.............................    13
    Hawken, Angela, Ph.D., associate professor of economics and 
      policy analysis, School of Public Policy, prepared 
      statement of...............................................    56
    Heaps, Melody M., president emeritus, TASC, Inc., prepared 
      statement of...............................................   122
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Marlowe, Douglas B., J.D., Ph.D., chief of science, law and 
      policy, National Association of Drug Court Professionals, 
      prepared statement of......................................    90
    Pollack, Harold A., Helen Ross professor, University of 
      Chicago School of Social Science Administration, faculty 
      chair of the Center for Health Administration Studies, 
      prepared statement of......................................   134
    Roman, John K., senior researcher, Justice Policy Center, 
      Urban Institute, prepared statement of.....................    67
    Tucker, Benjamin B., Deputy Director for State, Local and 
      Tribal Affairs, Office of National Drug Control Policy, 
      prepared statement of......................................    23


  QUITTING HARD HABITS: EFFORTS TO EXPAND AND IMPROVE ALTERNATIVES TO 
               INCARCERATION FOR DRUG-INVOLVED OFFENDERS

                              ----------                              


                        THURSDAY, JULY 22, 2010

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, Watson, and 
Jordan.
    Also present: Representative Davis.
    Staff present: Jaron R. Bourke, staff director; Claire 
Coleman and Charles Honig, counsels; Charisma Williams, staff 
assistant; Marc Johnson, assistant clerk, full committee; Ron 
Stroman, staff director, full committee; and Adam Hodge, deputy 
press secretary, full committee.
    Mr. Kucinich. The meeting will come to order. This is the 
Subcommittee on Domestic Policy of the Committee on Oversight 
and Government Reform.
    I want to thank all of you for your patience. The House had 
a series of votes which unfortunately came at the very 
beginning of the time that we wanted to commence this hearing. 
But your patience is much appreciated, and we will proceed now 
with the hearing.
    I want to thank the ranking member, Mr. Jordan of Ohio, for 
his presence, as well as Ms. Watson from California.
    Today's hearing is the fifth held by the Domestic Policy 
Subcommittee in this Congress on drug policy issues. This will 
be the first held by Congress to examine in comparative 
perspective different alternatives to incarceration that are 
being administered through the criminal justice system.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements of 3 minutes by any other Member who seeks 
recognition.
    And we are also joined by Mr. Davis of Illinois. Thank you 
for being here, sir.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    The number of individuals incarcerated for drug offenses 
has increased every year since 1980, despite recent efforts, 
including drug courts and State-level initiatives like 
Proposition 36 in California that are explicitly designed to 
minimize jail and prison time for non-violent drug-related 
offenders and provide treatment for drug-related offenders. 
Overall, the correctional population has increased by nearly 
2\1/2\ million, or 57 percent from 1990-2005. And the 
inflation-adjusted expenditures on corrections have more than 
doubled over the past 20 years.
    Furthermore, the need for drug treatment among offenders 
still far outstrips supply. These trends have continued, even 
as overall illegal drug use, especially abuse of cocaine and 
heroin, has declined, and the drug-related offender population 
has aged, which should naturally lead to a decline in the need 
for incarceration given older offenders' decreased propensity 
for violence.
    Why, and what can be done to reverse these trends? 
Certainly efforts at sentencing reform and improving how 
prisoners re-enter society, while not the focus of this 
hearing, are essential to break the cycle of drug abuse and 
crime and over-reliance on incarceration. Today's hearing has a 
slightly different focus and is the first congressional hearing 
to consider in a comparative perspective the various efforts 
within the criminal justice system itself to avoid 
incarceration and to provide drug treatment.
    Drug treatment court is an important part of the picture. I 
have consistently supported the growth of drug and other 
problem-solving courts. And this subcommittee held a field 
hearing in Representative Cummings' district in Baltimore to 
witness how these courts are evolving to provide coordinated 
wrap-around services. Despite efforts to bring drug courts to 
scale, however, they only enroll about 100,000 clients per year 
out of an estimated 1\1/2\ million yearly arrestees with drug-
related issues.
    While this disparity is partly a result of limited funding, 
it is largely the result of eligibility restrictions that at 
times exclude offenders with histories of criminal violence, 
severe drug addiction problems and co-occurring disorders. 
While witnesses today will express optimism that drug courts 
can be expanded to include some of these offenders, and some of 
this expansion is justified by outcome studies and would be 
cost-effective.
    It is clear that some aspects of their operation will have 
to change to reflect the different populations they serve. It 
is also clear that expanding the reach of drug courts is only 
part of the solution.
    We will learn about a new approach demonstrated by Hawaii's 
HOPE program. HOPE attempts to coerce abstinence through 
frequent drug testing and the provision of swift and certain 
sanctions to probationers who continue to test positive. In 
contrast to drug courts, HOPE initially does not provide drug 
treatment and reserves a judicially imposed treatment plan for 
participants who fail to become abstinent in the face of 
graduated minor sanctions.
    There has been some initial positive data on HOPE and there 
is a possibility it can help target drug treatment, which is 
costly, to those who truly need it. Nevertheless, there are 
many important questions that need to be answered and the 
Hawaii experience needs to be attempted on the mainland before 
we can judge what role HOPE should play.
    Finally, we look at the legacy of Proposition 36, which was 
passed by an initiative of California voters in 2000, and 
allows first or second time drug possession arrestees with no 
record of violent offenses to plead guilty to drug possession 
in return for diversion to a drug treatment program. While it 
has been criticized for lacking sufficient mechanisms to 
enforce the requirement that participants complete drug 
treatment, Proposition 36 has enrolled over 50,000 participants 
a year, amassing a wealth of relevant data to the proper design 
of diversionary programs.
    The common feature of these programs and approaches that we 
focus on today is that they are alternatives to incarceration 
administered within the criminal justice system. We should be 
wary of thinking of one program, approach or set of approaches, 
no matter how well conceived, is the answer to over-
incarceration. It is possible that programs can cross-hybridize 
or that different approaches are best understood as 
complementary and thus should be targeted to different drug-
involved offending populations.
    Congress must ensure that the Department of Justice and the 
Office of National Drug Control Policy, as policy experts, 
researchers and grantmakers, constantly measure the 
effectiveness of these programs, collect evidence about best 
practices, and, consistent with our notions of a just and safe 
society, help States make informed judgments.
    Thank you very much. The Chair recognizes Mr. Jordan of 
Ohio.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5558.001

[GRAPHIC] [TIFF OMITTED] T5558.002

[GRAPHIC] [TIFF OMITTED] T5558.003

[GRAPHIC] [TIFF OMITTED] T5558.004

    Mr. Jordan. Thank you, Mr. Chairman. I will be brief.
    I want to thank you for holding this hearing to create 
continuing disincentives for drug-involved offenders. And 
incarceration has been a primary and an effective solution. 
Today, 1 out of 100 Americans has spent time behind bars, 
sometimes disproportionately repeat offenders.
    Solutions to preventing incarceration are critical. 
Treatment in the type of local community-based care given to 
those with substance abuse and mental health disorders are 
necessary to fostering permanent, positive behavior changes. 
Treatment, along with training and skill development and 
stopping the flow of drugs across the border are the only ways 
to ensure we no longer have drug abusers.
    We must bear in mind that solutions which work for one 
person do not always work for another. Today I look forward to 
learning about the various tried-and-true solutions from our 
witnesses. It is my opinion, I just want to emphasize this, 
that legalizing drugs is certainly not the solution to 
preventing incarceration. It is not the solution to dealing 
with our drug problems. The harm to communities and families as 
a result of drug use has nothing to do with our current laws. 
We must work to prevent, control and mitigate addiction as we 
continue to fight this overall destructive behavior.
    With that, I will yield back, and I look forward to our 
witnesses.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes Ms. Watson of California.
    Ms. Watson. Thank you so much, Mr. Chairman. I want to 
thank you for holding this exceedingly important hearing on the 
front-end alternatives to incarceration for drug-involved 
offenders and abusers of illegal drugs.
    This hearing occurs at an opportune moment. Each year, our 
prison population grows, creating a heavy human cost for our 
communities and an increasingly large burden on the already 
strained budgets of our States. In California at this time, we 
have a proposition on the ballot that attempts to legalize 
marijuana, which I am very opposed to. But they are looking for 
a way to receive more revenues and they think they can do it 
this way. There is nothing to resolve the problem of the 
addictive use.
    So as we analyze the Nation's approach to reducing the 
availability and abuse of drugs, it is important to emphasize 
both the individual and group costs of addiction. Domestically, 
the disease of addiction has devastating consequences for 
individuals, families, communities and our judicial and health 
care systems. While on an international scale, as stated by 
Secretary of State Clinton while in Mexico, our insatiable 
demand for illegal drugs fuels the drug trade.
    It is imperative that we define and demolish the barriers 
to treatment for the millions of Americans struggling to regain 
themselves from the depths of addiction. By providing treatment 
and incentives to get clean, we can begin to reduce the rates 
of incarceration and recidivism for those who are abusing or 
addicted to drugs.
    In 2000, voters from my State of California recognized the 
need for alternatives to incarceration by some non-violent drug 
offenders and passed Proposition 36 by popular referendum. 
While there are clear limitations to this program, I am eager 
to hear from today's witnesses about Proposition 36 and other 
non-conventional methods of reducing incarceration levels while 
making our communities stronger and safer.
    I would like to thank all the witnesses today for their 
testimony, and you, Mr. Chairman, for your leadership and your 
dedication to this issue. I yield back the remainder of my 
time.
    Mr. Kucinich. I thank the gentlelady. And the Chair 
recognizes Mr. Davis of Illinois.
    Mr. Davis. Thank you very much, Mr. Chairman. Let me first 
of all thank you for giving me the opportunity to sit in on 
this hearing, although I am not a member of this subcommittee. 
One of the big tasks that I had to make in the last 
reorganization was to not be on this committee. [Laughter.]
    And I am always delighted to get a chance to come by.
    Mr. Kucinich. I would like to say, if I may, as chairman, 
that I ask unanimous consent to permit Mr. Davis, who is not a 
member of this subcommittee, to participate in this 
subcommittee. Without objection you may proceed.
    Mr. Davis. Thank you very much, again, Mr. Chairman. I want 
to thank you for tackling the big issues, the heavy ones, the 
tough ones. You have a long history of doing that, and so I 
wouldn't expect you to do anything else.
    I want to thank all of the witnesses for coming. Because 
given the fact that our country, this country has the largest 
number of individuals incarcerated of any nation on the face of 
the earth in proportion to population, as well as in actual 
numbers. So trying to find alternatives to incarceration, I 
think, is just one of the major things that we ought to be 
doing.
    I appreciate all of the witnesses who are here, especially 
one, Melody Heaps, with whom I have worked for any number of 
years and consider to be one of the foremost authorities on 
alternatives to incarceration in the Nation in relationship to 
how you handle the drug treatment problem, the issues related 
to drugs, and especially individuals who are also incarcerated, 
have been incarcerated, might become incarcerated, and also 
make use of drugs as a part of the lifestyle.
    So I thank you, Mr. Chairman, thank all of the witnesses 
and yield back the balance of my time.
    Mr. Kucinich. Thank you very much, Mr. Davis.
    If there are no other opening statements, the subcommittee 
will now receive testimony from the witnesses before us today. 
I want to introduce our first panel.
    Mr. James H. Burch, II, is Acting Director of the Bureau of 
Justice Assistance, Office of Justice Programs, U.S. Department 
of Justice, where he has served for nearly 15 years. Prior to 
his appointment as Acting Director, Mr. Burch served as the 
Deputy Director of Policy at BJA, overseeing an office and 
efforts designed to provide leadership in criminal justice 
policy, training and technical assistance, and to further the 
administration of justice.
    Mr. Burch began his career in public service at the local 
level, working for several years on case and records management 
and automation for the Circuit Court in Prince George's County, 
Maryland as a civilian within a local law enforcement agency.
    We also have with us Mr. Benjamin B. Tucker. Mr. Tucker is 
the newly confirmed Deputy Director for State, Local and Tribal 
Affairs for the Office of National Drug Control Policy. 
Beginning his career as a beat cop in New York City's police 
department, Mr. Tucker has 40 years of experience in the fields 
of law enforcement and criminal justice. He is a recognized 
expert in community policing.
    An attorney prior to joining the ONDCP, Mr. Tucker served 
as a professor of criminal justice at Pace University, Director 
of Field Operations and Senior Research Associate at the 
National Center on Addiction and Substance Abuse at Columbia 
University, in the Department of Justice and in various 
positions in the New York City Government.
    Director Burch and Deputy Director Tucker, this 
subcommittee is very grateful for your appearance today and 
also grateful for your service to the people and to this 
country.
    It is the policy of the Committee on Oversight and 
Government Reform, gentlemen, to swear in all witnesses before 
they testify. I would ask that you stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that both of the 
witnesses have answered in the affirmative.
    I have to say that in the 14 years I have been in Congress, 
I don't think I have ever had anyone say, I don't. [Laughter.]
    I would ask that each witness give an oral summary of your 
testimony. Keep this summary to about 5 minutes. Your complete 
written statement will be in the hearing record.
    Mr. Burch, you are the first witness on this panel. Thank 
you for being here. I ask that you proceed.

  STATEMENTS OF JAMES H. BURCH II, ACTING DIRECTOR, BUREAU OF 
JUSTICE ASSISTANCE, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT 
OF JUSTICE; AND BENJAMIN B. TUCKER, DEPUTY DIRECTOR FOR STATE, 
   LOCAL AND TRIBAL AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL 
                             POLICY

                 STATEMENT OF JAMES H. BURCH II

    Mr. Burch. Chairman Kucinich, Ranking Member Jordan, 
Congresswoman Watson, Congressman Davis, I want to thank you 
all for the opportunity to be here today.
    Today I hope to discuss alternatives to incarceration in 
the State, local and tribal criminal justice systems, and the 
Department's commitment to supporting smarter approaches to 
preventing and reducing crime. It is well known that crowded 
jails and prisons, as you have talked about here today, and 
high recidivism, continue to seriously strain State and county 
budgets.
    In response, the Office of Justice Programs at the 
Department of Justice and its Bureau of Justice Assistance has 
shifted its focus to more strategic, more effective and 
sustainable approaches to addressing crime that recognizes the 
critical role of evidence-based strategies and sentencing 
alternatives.
    We believe that we have a responsibility to be not only 
tough on crime, but more importantly, to be smart on crime. 
This means supporting programs that are backed by evidence of 
effectiveness, not simply ideology. The Bureau of Justice 
Assistance believes that pretrial justice strategies, for 
example, can play a major role in reducing recidivism and 
corrections costs.
    A Bureau of Justice statistics survey found that more than 
60 percent of people confined in jail on any given day were 
those awaiting trial, frequently for a non-violent offense, and 
many of whom were later sentenced to something other than 
incarceration. This fact suggests that an alternative may have 
been appropriate at an earlier stage in the justice process.
    Further, by implementing pretrial justice strategies, 
including the use of research based risk assessment 
instruments, communities may be able to more efficiently and 
effectively use community supervision alternatives and reduce 
spending on corrections.
    To gain the foothold needed to be successful with community 
supervision and re-entry, we must capitalize on the 
opportunities presented at the front end of the system. For 
instance, many adults and juveniles have been successfully 
diverted from further offending by programs that use the 
leverage and the monitoring power of the court, together with 
treatment and broad community collaboration. One example of 
this problem-solving approach are drug courts, which have been 
shown to be effective in addressing substance abuse problems, 
as well as reducing recidivism.
    Through a National Institute of Justice multi-site drug 
court evaluation, researchers are identifying what specific 
drug court practices are most effective and under what 
conditions, both of which will help us to further refine the 
drug court grant programs that we administer and ensure that we 
are supporting evidence-based strategies. I understand that Dr. 
Roman will discuss some preliminary results of this study later 
today.
    BJA is also working to strengthen probation and parole 
strategies. For example, Hawaii's HOPE program, which I go into 
greater detail about in my written statement, is one such 
strategy. The President's fiscal year 2011 budget submission to 
Congress proposes a smart probation program that will provide 
$10 million in funding for State, local and tribal 
jurisdictions to replicate strategies such as Hawaii HOPE.
    Another example of a strategy designed to enhance safety 
and reduce corrections spending is the Justice Reinvestment 
Initiative. Through this initiative, BJA is assisting State, 
local and tribal communities in conducting a thorough review of 
the local drivers of corrections costs and the identification 
of policy alternatives to reduce costs and increase 
effectiveness. To date, this initiative has shown significant 
results across the country. In one example, from the State of 
Vermont, our efforts are expected to yield an estimated $54 
million in net savings through fiscal year 2018, with a portion 
of this savings to be reinvested in improved assessments, 
expanded residential treatment and vocational training.
    In each of these programs, we see examples of how evidence 
plays a role in shaping policy and practice. The Attorney 
General has made it a priority to develop and enhance evidence-
based practice that buildupon current approaches while also 
encouraging innovation. Hand in hand with supporting research 
is the responsibility for translating it for use and 
integrating evidence into the work of justice professionals. 
This initiative is discussed as well in greater detail in my 
written testimony.
    Recidivism is a complicated problem and there is a lot more 
for us to learn in this area. Confronting recidivism in a more 
balanced way means recognizing the role of prevention, pre-
trial services, treatment and sentencing alternatives. Each of 
the strategies I discuss today are valuable tools that 
represent opportunities to maximize the effectiveness of State, 
local and tribal justice systems, and to make our communities 
safer.
    Mr. Chairman, this concludes my statement. I welcome any 
questions that you may have.
    [The prepared statement of Mr. Burch follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.005
    
    [GRAPHIC] [TIFF OMITTED] T5558.006
    
    [GRAPHIC] [TIFF OMITTED] T5558.007
    
    [GRAPHIC] [TIFF OMITTED] T5558.008
    
    [GRAPHIC] [TIFF OMITTED] T5558.009
    
    [GRAPHIC] [TIFF OMITTED] T5558.010
    
    [GRAPHIC] [TIFF OMITTED] T5558.011
    
    [GRAPHIC] [TIFF OMITTED] T5558.012
    
    Mr. Kucinich. Thank you, Mr. Burch.
    The Chair recognizes Mr. Tucker. You may proceed.

                STATEMENT OF BENJAMIN B. TUCKER

    Mr. Tucker. Chairman Kucinich, Ranking Member Jordan, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss alternatives 
to incarceration.
    Having walked a beat as a New York City police officer and 
working in criminal justice for more than 35 years, I 
understand that in order to break the cycle of drug use, crime 
and incarceration, it is important to identify and foster 
effective alternatives to incarceration.
    The Obama administration's 2010 National Drug Control 
Strategy also reflects this premise as it places an 
unprecedented focus on the importance of such innovations in 
the criminal justice system and recognizes that prevention, 
treatment, recovery, support and enforcement are all essential 
components of an effective approach to addressing drug use and 
its consequences.
    Due to the desire to reduce recidivism, the high costs of 
incarceration, budgetary constraints and the recognition that 
incarceration is not always the most effective solution for 
those with substance use disorders, all levels of government 
are exploring new approaches and expanding proven efforts.
    When discussing alternatives to incarceration, it is 
important to recognize specific front-end alternatives, such as 
prevention, early intervention and treatment, all of which keep 
individuals from ever entering the criminal justice system. The 
President's 2011 budget request reflects the increased emphasis 
on prevention by requesting approximately $1.7 billion to 
support prevention programs.
    Another important component to provide front-end 
alternative to incarceration is facilitating effective early 
intervention and treatment for individuals with drug use 
problems. Addiction is a chronic, complex disease, both 
psychological and biological in nature, and should be managed 
in the same way as other chronic conditions. However, because 
substance abuse treatment is not fully integrated into the 
health care system, too many substance abuse problems go 
unrecognized. This decreases the chances abusers will seek 
treatment and increases the possibilities for criminal 
activity. Therefore, involvement with the criminal justice 
system may be the first time an individual has the motivation 
and the opportunity to address his or her substance use 
problem.
    For these reasons, it is important that the criminal 
justice system has the capacity to effectively treat drug use. 
It is why the fiscal year 2011 budget requests $3.9 billion to 
support treatment programs. The reality is that even the best 
prevention, intervention and treatment efforts may not help 
every person. For some, drug use results in criminal and 
delinquent behavior, disrupting family, school, neighborhood 
and community life in fundamental and long-lasting ways.
    The majority of drug-involved offenders are in State 
correctional systems, and many of the low risk offenders are 
sentenced to probation and supervised through a variety of 
programs. The type of programs selected for the offender will 
depend on his or her particular set of circumstances. The range 
of programs includes specialty courts, community supervision, 
residential treatment programs, testing and sanctions programs, 
drug market interventions and programs that use monitoring 
devices.
    ONDCP is shepherding policies that will transform systems 
and force partnerships, bringing together a wide range of 
services that will help people in recovery, build and maintain 
a substance-free lifestyle, while also reducing recidivism. 
Typical recovery support services include safe and sober 
housing, medical and dental care, mental health treatment, 
employment training and placement, family counseling, child 
care and transportation. The Federal Government's role in these 
efforts is to provide guidance by highlighting model programs, 
ensuring Federal assistance promotes effective long-term 
approaches, and requiring evaluations to determine program 
effectiveness.
    As reflected in the National Drug Control Strategy, 
combining effective and fair enforcement with robust prevention 
and treatment efforts will enable us to be successful in 
addressing drug use and its consequences.
    I look forward to working with the subcommittee to address 
these challenging and important issues. Once again, than you 
very much for the opportunity to testify and for the support of 
the subcommittee on these vital matters.
    [The prepared statement of Mr. Tucker follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.013
    
    [GRAPHIC] [TIFF OMITTED] T5558.014
    
    [GRAPHIC] [TIFF OMITTED] T5558.015
    
    [GRAPHIC] [TIFF OMITTED] T5558.016
    
    [GRAPHIC] [TIFF OMITTED] T5558.017
    
    [GRAPHIC] [TIFF OMITTED] T5558.018
    
    [GRAPHIC] [TIFF OMITTED] T5558.019
    
    [GRAPHIC] [TIFF OMITTED] T5558.020
    
    [GRAPHIC] [TIFF OMITTED] T5558.021
    
    [GRAPHIC] [TIFF OMITTED] T5558.022
    
    [GRAPHIC] [TIFF OMITTED] T5558.023
    
    [GRAPHIC] [TIFF OMITTED] T5558.024
    
    [GRAPHIC] [TIFF OMITTED] T5558.025
    
    [GRAPHIC] [TIFF OMITTED] T5558.026
    
    [GRAPHIC] [TIFF OMITTED] T5558.027
    
    Mr. Kucinich. Thank you very much, Mr. Burch and Mr. 
Tucker.
    I want to acknowledge the presence of Congressman Elijah 
Cummings, who a few years ago opened up this area of inquiry in 
the Congress, and his city of Baltimore is doing much to try to 
bring about diversion from the criminal justice system into 
rehabilitation. So I appreciate Mr. Cummings' presence here.
    We are going to have the first round of questions. We will 
probably have two rounds of our panel.
    To both Mr. Burch and Mr. Tucker, the Conference of Chief 
Justices has advocated expanding drug court funding to $250 
million and to distributing this funding to the States in a 
block grant program. Do you believe that the current evidence 
on drug court effectiveness warrants expanded funding, or do 
you believe that a block grant program is the best way to 
administer drug court grants? Mr. Burch.
    Mr. Burch. Thank you, Mr. Chairman. I appreciate the 
opportunity to address that question. We have certainly met 
often with the Conference of Chief Justices, and we appreciate 
their support for the expansion of the drug court program. We 
certainly have a lot of respect for their views and their 
input. They have shared with us some of their concerns about 
greater coordination of our efforts with the efforts in the 
State, and we will certainly continue to do that.
    Respectfully, however, we don't agree that a block grant 
program is the best way to administer these funds.
    Mr. Kucinich. Why not?
    Mr. Burch. What we did this year, sir, after the Conference 
passed a resolution supporting this effort, we set aside some 
resources in the drug court grant program to test this 
approach. We offered for States to come in, apply for 
essentially a block of funding under the drug court grant 
program that they could then administer to local jurisdictions 
within their State.
    To our somewhat surprise, we only received six applications 
from around the country for that effort, which demonstrates to 
us that this may not be the best way to go.
    Mr. Kucinich. Mr. Tucker, do you have a response to that?
    Mr. Tucker. I would, given my newness to the office, but 
more importantly deferring to Mr. Burch, where they have 
experiencing in moving block grant funds to the local 
jurisdictions----
    Mr. Kucinich. Let me do this, then. Mr. Tucker, your 
testimony acknowledges the hurdles that many cash-strapped 
States face in implementing alternatives to incarceration. 
Because even over time the result is net savings, at the front 
end, establishing alternatives to incarceration can be costly. 
Is there a role for the Federal Government to incentivize 
States to set up programs through grants, and is the ONDCP 
working with Congress to encourage States to initiate such 
justice reinvestment and community supervision programs?
    Mr. Tucker. The answer briefly is yes. Without a doubt. I 
think there is no question that we want to drive funding to 
local jurisdictions. Pretty much everything that we think about 
with respect to how to deal with drug enforcement, drug 
treatment, prevention issues is very much a local issue, 
particularly as it relates to prevention. So to the extent that 
we can get funds down to the jurisdictions where it is most 
needed, obviously I agree with that premise.
    Mr. Kucinich. Let me do a followup, if I may. We just have 
5 minutes each. So I am trying to make sure I get your insight 
on a number of different areas.
    As a followup, does the Department of Justice and ONDCP 
support modifications of the Federal Drug Court authorizing 
statute that would replace the categorical exclusion of violent 
offenders from drug courts with a procedure by which local drug 
court teams would have the responsibility to determine the 
class of offenders that should be excluded from drug courts 
because of their criminal history? Would you like to comment on 
that, Mr. Tucker?
    Mr. Tucker. Sure. The emphasis seems to be, in your 
question, on violent offenders. The research, as far as I know, 
suggests that drug courts have had some success in dealing with 
high-risk, high-need defendants. So to that extent, yes, it is 
certainly an idea worth considering. I don't know at this point 
in time how that would be implemented. I think you are correct 
that it would be left up to the local jurisdictions and the 
judges in those local courts to make those determinations.
    Mr. Kucinich. Mr. Burch.
    Mr. Burch. I would agree with Mr. Tucker, the research is 
clear on this point. We don't think categorical exclusions or 
inclusions are the way to go. This is a local issue. We can't 
risk public safety. But the research is clear on this. We need 
to do a better job of getting high-risk, high-need in.
    Mr. Kucinich. Thank you. My time is expired. I am going to 
recognize Mr. Jordan for 5 minutes. You may proceed.
    Mr. Jordan. Thank you, Mr. Chairman.
    Thank you both for being here and for the work you do. Mr. 
Tucker, we appreciate your background in law enforcement, and 
appreciate Mr. Kerlikowske, the times that he has come before 
us and talked with the chairman and myself and the full 
committee. We appreciate his work.
    Mr. Kerlikowske said in a Senate Judiciary hearing back in 
March of this year that in 2008, over 23 million Americans 12 
and older needed treatment for some type of illicit drug or 
alcohol use problem, but less than 10 percent received the 
necessary treatment for their respective disorder.
    Yesterday we learned in a hearing on the same general 
subject from Mr. Ford at GAO that in 10 years, because I asked 
him the question, I didn't know the answer, I just asked the 
question, has GAO done any studies on how effective our 
treatment programs are. So if you kind of cut to the chase, 
only 10 percent of the folks who have a problem are getting 
some kind of treatment. And we have no idea how effective the 
treatment is that small percentage are actually receiving.
    The folks who get, who are actually put in prison, how many 
of the incarcerated individuals for a drug offense in our 
prisons are getting some type of treatment? Probably Mr. 
Tucker, I would assume, but we can go to both of you.
    Mr. Tucker. Sure. Well, I don't think enough. I don't know 
the exact numbers. But I think that is our challenge. The data 
that you have heard and from other sources suggests that we are 
not doing enough.
    Mr. Jordan. I think it gets us to the obvious question, if 
we are looking at alternatives to incarceration, that all makes 
sense if they are non-violent and that is the best way to help 
people. I get that. But if we are only getting 10, 11, 12 
percent, I don't know. Are we really going to go down that 
road? We have them there, they are not getting treatment right 
now.
    Mr. Tucker. I think the point is that we have to figure how 
to do more. Clearly we need to do more. And I think we need to 
figure out how to do more both in terms of providing the 
resources and to your point earlier, making sure that whatever 
treatment is provided and however it is provided that the 
vehicles we use are effective and we are getting to the right 
population.
    Mr. Jordan. Let me ask Mr. Burch, then I will followup.
    Mr. Burch. As it relates to identifying children with those 
kinds of needs, I think we need to be more creative about how 
we do that. One of the examples of that is, we are training 
school resource officers now in how to identify children with 
those kinds of special needs, and then link them up with the 
treatment that is available. Because that is often the issue at 
that age.
    In terms of residential treatment, I just want to thank the 
Congress for responding to the President's call to double the 
funding through the Residential Substance Abuse Treatment 
Program. We are now providing States $30 million a year, State 
departments of correction, to provide residential treatment for 
those who are incarcerated. That is on top of our investments. 
Thanks to Congress for responding with the Second Chance Act, a 
$100 million that is made available to serve offenders and to 
get them the treatment they need.
    Mr. Jordan. With respect to treatments that actually work, 
for the percentage we are giving some treatment to, HHS agency, 
Substance Abuse and Mental Health Services Administration 
[SAMHSA], has stated that ``the beneficial role that faith and 
spirituality play in the prevention of drug and alcohol abuse 
and in programs designed to treat and promote recovery from 
substance abuse and mental disorders has long been 
acknowledged.'' Would both of you agree with that statement? 
Faith-based treatment is effective, would you agree with that 
statement?
    Mr. Burch. I'm sorry?
    Mr. Jordan. Would you agree with the statement, and this is 
according to SAMHSA, has stated, ``The beneficial role that 
faith and spirituality play in the prevention of drug and 
alcohol abuse and programs designed to treat and promote 
recovery from substance abuse and mental disorders has long 
been acknowledged.'' Would you agree with that statement?
    Mr. Tucker. Actually I am not sure I understand the 
statement.
    Mr. Jordan. I will make it simple. Do you believe that 
faith-based treatment programs, do you think they are effective 
in helping people with their drug and alcohol problem?
    Mr. Tucker. I think there are multiple ways in which 
treatment can be applied.
    Mr. Jordan. The question was, do you think faith-based 
programs, this is according to HHS, they seem to think so, do 
you think so?
    Mr. Tucker. I think if they have tested it and they have 
had some success, I mean, I think treatment is delivered in a 
number of different modes in different places around the 
country. If faith-based, if the organization happens to be a 
faith-based organization and their treatment modality is 
effective, then I would say, yes, I agree with the statement. 
But I think there are multiple ways in which treatment takes 
place.
    Mr. Jordan. Mr. Burch.
    Mr. Burch. I am not familiar with the research 
specifically. But I think that the President and others have 
said that there is clearly a role for faith-based organizations 
and community-based organizations for those who want it in this 
recovery. So we support that, and we have worked with that for 
a while.
    Mr. Jordan. OK. Mr. Chairman, I have a followup on that.
    Mr. Kucinich. The Chair recognizes Ms. Watson.
    Ms. Watson. I mentioned before my State of California 
started one of the largest treatment diversion programs by 
passing Proposition 36 by popular referendum. Unfortunately, 
Proposition 36 has not allowed us to significantly reduce the 
cost of our correction system, because one quarter of the 
offenders who have accepted the Proposition 36 bargain never 
appeared for treatment. And then only one third completed it.
    So what do you think California needs to do to improve the 
level of compliance with Prop 36? Should they incorporate any 
best practices from Hawaii's Opportunity Probation with 
Enforcement, that is the HOPE program? And given the severe 
budget crisis that we face in California, do you think the 
State has the will and resources to successfully reform the 
Proposition 36 program? I guess I could answer that myself, but 
let me start with Dr. Tucker.
    Mr. Tucker. I can't speak to the issue of the State's will. 
But with respect to the parts of the program in California that 
don't seem to work effectively with respect to the success 
rate, I think it is important to look at what is happening in 
Hawaii, certainly. But we can look other places as well. I 
think there are a number of opportunities around the country to 
look at places that have been effective and have had high 
success rates. Drug courts, certainly, the research, as we have 
already mentioned, have been very successful in keeping the 
recidivism rates down, for example, over time.
    So I think it is worthwhile, when we try these experiments, 
to evaluate them as we go. And if they are not working, to 
think about ways in which we can fix the parts that are not 
effective.
    Ms. Watson. My colleague mentioned faith-based. Sadly, 
those who are hardly addicted don't end up in these faith-based 
programs. These are the ones we would like to lure in. But it 
has been something that is elusive thus far.
    I would like to ask Mr. Burch, in your testimony you stated 
that encounters with law enforcement play a critical role in 
whether or not people with mental illness or co-occurring 
disorders, such as mental illness and substance abuse, are 
identified and directed to appropriate treatment instead of 
simply cycling them in and out of our jails and prisons. So 
what is being done on the Federal level to encourage 
collaboration between the police and the mental heath 
community?
    Mr. Burch. Thank you so much, Congresswoman, that is a 
wonderful question. I am pleased to be able to respond. Through 
our Justice and Mental Heath Collaboration program, we have 
been working together with a number of different organizations, 
among them the National Association of Chiefs of Police, to 
begin to develop models that can be replicated around the 
country for crisis intervention to give law enforcement 
officers that are on the beat the tools that they need to be 
able to respond to the individuals that they encounter, under 
the premise that having a person enter the justice system for 
treatment is simply not the best answer and we can do better.
    And we can do better by giving law enforcement the tools 
they need to know how to recognize it, and then how to divert 
it locally. And that training has been very successful. We have 
seen it be replicated not only in individual cities and towns, 
but also individual States now have taken it on and replicated 
that training for their entire public safety response core, if 
you will, not only law enforcement, but also EMTs, for example. 
Georgia is one example of where that is happening.
    So there is great news to report and we are making a lot of 
progress.
    Ms. Watson. Well, maybe we need to improve the level of 
understanding of these particular treatments that seem to be 
effective. We have to some way get that knowledge out there.
    I would like to go on, Mr. Burch. You also stated that the 
Bureau of Justice Assistance is directing $57 million in 
funding for problem-solving courts in fiscal year 2010 and has 
requested the same amount for fiscal year 2011. And compared to 
traditional criminal justice proceedings, the costs are on 
average $1,392 lower for drug court participants and can get to 
a savings of as much as $12,218 if recidivism, victimization 
and other long-term societal costs are factored in as well.
    Given the savings that these alternative courts offer and 
their potential positive impact on individuals, families and 
communities, it is critical that there are consistently 
available alternatives to incarceration for those who could 
benefit. So are you confident that the $57 million is enough to 
provide comprehensive access to problem-solving courts for all 
who could benefit from them? And when you developed the request 
for $57 million for fiscal year 2011, did you take into account 
the increasing budget constraints of our States and local 
communities?
    Mr. Burch. Thank you, Congresswoman. Yes, we are taking 
into account the economic situation that exists in the States 
and local jurisdictions in everything that we do.
    In developing the budget proposals that have been sent 
forward, obviously the economic conditions and situation that 
we are in is something that we have to take into consideration. 
But we also look at the numbers of applications that we are 
receiving from local jurisdictions to replicate these programs. 
In the last couple of years, we have been able to fund almost 
every responsive application that has come to us for drug 
courts or other kinds of problem-solving court programs.
    That does not mean that we could not use additional 
resources, if appropriated, to provide to additional 
communities. But it does indicate to us that we are providing 
the responsiveness that we need to provide on this, and that we 
need to continue to work with communities to address these 
categorical exclusions that are addressing the people that are 
able to get into these alternatives. That seems to be a big 
issue, as it relates to capacity.
    Ms. Watson. Thank you, and thank you for the extra time, 
Mr. Chairman.
    Mr. Kucinich. The gentlelady is welcome.
    The Chair recognizes Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for being here today. Let me just ask 
you, in Baltimore, we have had a lot of success with our drug 
court. As a matter of fact, it has probably proven to be the 
most successful thing I have seen. First of all, I guess it is 
because the judge has a hatchet over the head of these folks. 
They know that if they mess up, they are going to suffer the 
consequences.
    I think the other piece is that it is comprehensive, 
helping them to find jobs, get drug treatment, the whole bit. 
There are certain elements that seem to be of certain 
significance as alternatives to incarceration, that is so that 
the person, the defendant, most benefits, not just society, but 
the person benefits. What elements would you say seem to yield, 
that you have noticed that programs have that seem to yield the 
greatest benefit to the defendant? Both of you look like you 
are lost. What is wrong? I thought maybe I was in the wrong 
hearing or something. [Laughter.]
    Mr. Tucker. Let me respond to that. I think we are talking 
about providing, to the extent that the person has a drug 
problem, we want to provide treatment. It is important. And 
that treatment has to be regular. We have to drug test folks to 
make sure that they are staying clean. We have to, if they are 
leaving and returning to our streets, to our communities, then 
we have to make sure that they are, that treatment can be 
continued as part of their recovery. That is really critical.
    And you mentioned already what I call the wrap-around 
services, this notion that you don't want to leave these folks 
stranded. You want to make sure that they have something to 
help them stand up once they are back in the community. Those 
types of services have to do with jobs, they have to do with, 
if we are talking about juveniles, it has to do with making 
sure that they can cycle back into school to the extent that 
they are not ready, that they haven't graduated.
    But whatever it takes in terms of those wrap-around 
services, that is what I think is important to help stand these 
folks up. That is why I think drug courts who provide those 
kinds of services and recognize that they have a link to 
service providers that can get support for these individuals 
once they are back in the community really is an effective way 
in which to proceed.
    Mr. Cummings. I am going to get to you in a minute, Mr. 
Burch, but I just want to throw this out. I was sitting and 
listening to you, and I was thinking to myself, alternatives 
may very well be a good thing. Because I will tell you, one of 
the things that has always bothered me as a lawyer and just as 
a citizen is how somebody can go into prison and come out worse 
off than when they went in. In other words, the dirty little 
secret is that sometimes that are drugs floating around in the 
prisons.
    See, people don't like to talk about that. But that is 
serious. And so if you have drugs in the prison, I mean, if you 
really think about it, if you don't have drugs in the prison, 
what does that mean? That means somebody is doing some serious 
cold-turkey, because that is all they can do.
    But then when you see people come out of prison, still 
drugged up and in some instances worse off than when they went 
in, that is an uncomfortable subject, but it is real. I live in 
the inner city of Baltimore, so I see that. So I am just, it 
kind of bothers me that sometimes we don't address those kinds 
of issues. You don't have to talk about it, but it is something 
that people don't deal with, and it is real.
    And we have now seen in the Baltimore area more and more 
indictments coming out for folks who work in prisons. I am not 
knocking, every headline tomorrow will be Cummings knocks 
security guards, I am not saying that. I am just telling you 
what I have seen happen and I think it is happening all over 
the country, a few bad apples are letting drugs flow into these 
prisons and it is very, very sad.
    So then you say to yourself, well, maybe it is better that 
the person be on the outside to get the kind of treatment that 
they need or what have you. You can comment on that if you 
want, Mr. Burch. Or do you want to comment, Mr. Tucker?
    Mr. Tucker. I agree with you that is a reality. We support, 
one of the things that we are trying to do here is break the 
cycle. So we have to think comprehensively. So we focus on drug 
use, we focus on crime, we focus on delinquency. We also have 
to focus on incarceration inside the facilities.
    So there has to be law enforcement even inside the 
facilities looking for drugs. The drug trafficking happens 
inside as well as outside. I am as disturbed as you are we 
recognize that those conditions exist. But it is about 
additional law enforcement, I think both at the State level and 
the Federal level, the institutions spend a lot of time focused 
on law enforcement inside the institutions, conducting 
inspections, searches, drug testing and so forth. Those kinds 
of activities should continue.
    Mr. Cummings. Mr. Chairman, I see my time is up. Thank you.
    Mr. Kucinich. We have a vote on, but what we are going to 
do is give Mr. Davis an opportunity to ask his questions, which 
will complete the first round. We will recess after Mr. Davis 
for two votes, perhaps a half hour. Then we will come back and 
go to the second round and we will get to the next panel after 
that. I appreciate everyone's indulgence. We in the committee 
don't have control over the congressional schedule. But we do 
want to make sure our committee work is thorough and that we 
hear from everyone.
    Mr. Davis for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. Let me just 
say that I am a real fan of drug courts. I have been for a long 
time. A good friend of mine, Eugene Pincham, they used to call 
him all kinds of things, the hanging judge. But Pincham started 
years ago of probably going outside the rim of what people 
expected a judge to do. He just started directing individuals 
to do certain things. He would give them 60 days to do them and 
say, come back to my court, let me see how you have made 
progress. If you haven't made any, I am going to lock you up, I 
am going to send you down to Menard or wherever. Of course, 
Judge Pincham died not too long ago. He was recognized as one 
of the most effective judges around.
    Let me ask, how high is the Bureau on coalitions? The 
development of community coalitions as a real way of reducing 
recidivism? I have seen some places like in North Chicago, 
Illinois, and Waukegan, that I consider to have a very 
excellent community coalition. I have seen something in 
Bloomington, Illinois, where the Joy Center has put together a 
coalition of public defender, the State's attorney, the NAACP, 
the churches, the schools, everybody is a part of their action. 
How does the Bureau feel about that kind of activity?
    Mr. Burch. Thank you, Congressman Davis. I am glad to hear 
you mention Bloomington, Illinois. In fact, we were involved in 
working with Bloomington, Illinois, in setting up that group 
many years ago when they began an anti-gang initiative in that 
community. That is where that group got started. I don't 
remember the name of the committee now, but it has been a very 
innovative group. I think at one time they even started their 
own business to generate revenues for their program. It is just 
a great community and a great group of people.
    And I am sure Mr. Tucker would like to talk about the Drug-
Free Community Support Program that also encourages 
collaboration. We are 100 percent behind that, and we are 
thankful to you and others for ensuring that the Second Chance 
Act also includes this notion as well, and the task force 
requirements as a part of that program.
    We see that, and you have to have that kind of broad-based 
community support behind every one of these initiatives. As we 
talked to folks in Virginia earlier this week, in fact, you 
can't just have one part of the system trying to make change. 
We have to make change in every part of the justice system, 
from the front door to the back door and everything in between. 
All of those people have to be at the table and have to be 
committed to making change.
    So we are 100 percent behind that.
    Mr. Davis. Thank you very much.
    Mr. Tucker, let me ask you, there is an expression of 
concern on the part of many people that there might be more 
focus in terms of the drug control policy shifting toward 
trying to prevent the spread of meth and not as much focus put 
on, say, crack cocaine in central city areas. I happen to live 
in the inner city area of Chicago and have lived in a big, 
urban inner city all of my adult life. Could you just address 
those two concerns that are being expressed?
    Mr. Tucker. Sure. I think I understand it. I think again, 
this s a very local kind of issue. Even when I was on the 
streets as a cop, these same kinds of questions would come up 
from neighborhood to neighborhood, community to community. The 
fact of the matter is that depending on what community we are 
talking about, what State, what neighborhood, what county or 
whatever, you are going to have different types of, as it 
relates to drug trafficking, different types of illegal, 
illicit substances.
    So as you point out, it could be meth in the Midwest, 
perhaps, as it came across the country or it could be cocaine, 
it could be heroin, it just depends. So the response is going 
to be dictated by the threat. So the way in which we do this 
is, for example, I am responsible for the High Intensity Drug 
Trafficking Areas, there are 28 of those around the country, 5 
along the Southwest border and in a number of other 
jurisdictions. Those are task forces, Federal, State and local 
law enforcement offices, constantly looking at, gathering 
information, looking at the intelligence and then looking at 
also developing the threat for that particular jurisdiction, 
wherever it may be.
    So that is, I think, the response has to be a function of 
what the threat is. And then the authorities, the law 
enforcement officials take the necessary steps to try and 
intervene.
    Mr. Davis. Thank you very much, and thank you, Mr. 
Chairman. I yield back.
    Mr. Kucinich. I thank Mr. Davis. Committee members, we will 
be back here at approximately 4 o'clock to resume the second 
round of questions. The committee stands in recess until 4. 
Thank you.
    [Recess.]
    Mr. Kucinich. Thank you very much for your patience and 
your presence. We are going to go to round two of questioning. 
To both Mr. Burch and Mr. Tucker, lessons both positive and 
negative can be derived from the over 1 million participants in 
Prop 36 that are presumably important to the Federal 
Government's role in promoting evidence-based, effective, State 
criminal justice policies. So it seems logical that the Federal 
Government would be more involved in the evaluation of its 
effects and perhaps take a position on its success. But it 
doesn't seem the Federal Government has taken a role.
    Do you want to comment on that, Mr. Burch?
    Mr. Burch. Thank you, Mr. Chairman. I think it is correct 
that I don't think we have a position or have taken a position 
on that proposition.
    Mr. Kucinich. Do you have any comment on it at all?
    Mr. Burch. Well, not on the proposition itself, sir, but on 
the general topic of alternatives to incarceration and the 
things that we can be doing in this area is exactly what we are 
hoping to do more of this coming year.
    Mr. Kucinich. I thank you. Mr. Tucker, would you agree with 
that?
    Mr. Tucker. I think so. And again, both as we mentioned 
earlier in the last session, to the extent that the program 
that has been established is not working completely as expected 
and may not be serving the population or getting the results 
that were expected, then certainly it is important to 
reevaluate it and figure out what the fixes might be.
    Mr. Kucinich. Now, Mr. Burch, in her written testimony, 
Professor Hawken notes that over half the criminal justice 
program designated as evidence-based and the SAMHSA's National 
Registry of Evidence-Based Programs were evaluated by the 
program developer. That research shows that outcome analyses 
are typically more positive when conducted by those with a 
vested interest in the program. While I have no reason to doubt 
the results of the MADCE study on drug courts funded by the 
Department of Justice, I will note that their principal 
researchers include prominent advocates of drug courts. What 
steps has the Department of Justice taken in the design of its 
new Evidence Integration Initiative to ensure the integrity of 
the program evaluations?
    Mr. Burch. Thank you, Mr. Chairman, that is a great 
question. The EII initiative is a broad initiative that will 
not just focus on one or two evaluations, or evaluations that 
we have funded or that our partners have conducted. The way 
that we expect to roll out EII is a very broad-based effort to 
look at what other organizations have found with regard to 
evaluations, including entities such as the Campbell 
Collaboration and others. So it is a very broad look at what 
the field has found with regard to effectiveness of certain 
programs. It will not be focused exclusively on those that we 
have funded or that our partners have implemented.
    Mr. Kucinich. What percentage of those who are currently 
incarcerated for drug-related offenses do you believe should 
not be subject to incarceration at all under an ideal criminal 
justice scheme that balances concern for public safety and the 
need for deterrence and a sober assessment of direct and 
collateral harms of incarceration? Mr. Burch.
    Mr. Burch. Thank you, sir. I think it would be hard to put 
a finger on an exact percentage. But as I noted earlier, I 
think one of the concerns that we have with where we are today 
is this categorization of certain types of offenders or needs 
within certain categories. So what I would advocate for is that 
we go to a risk assessment based model. We can look at each 
individual offender to determine what the needs are. And that 
would tell us which of those folks that are incarcerated really 
do need to be there and which don't.
    Mr. Kucinich. Mr. Tucker, would you like to comment on 
that?
    Mr. Tucker. I would agree with Mr. Burch. I think it is 
case by case. I think that is the simple solution. We have to 
pay attention to who these individuals are, why they are inside 
and then make some determination whether or not either we 
continue to provide them with treatment and services while they 
are incarcerated for the long term, or under whether certain 
circumstances it would be appropriate to put them on parole, as 
an example, to provide services.
    Mr. Kucinich. On the next panel, we are going to have many 
witnesses who have recommended that we move toward evidence-
based sentencing. Sentences based on risk and needs and cost-
effectiveness data and not simply on offense-based factors. One 
witness recommended both the amendment of the U.S. Sentencing 
Guidelines and that DOJ should make grants to States for them 
to formulate evidence-based sentencing reforms.
    Where are you on the issue of sentencing reforms?
    Mr. Tucker. I understand that the Justice Department, 
actually the Attorney General, has appointed a panel to take a 
look at sentencing reforms, and I think appropriately so. So I 
think it would be wise for us to see what the panel has to say 
about sentencing in all its aspects, and then be guided by that 
in terms of what we do going forward.
    Mr. Kucinich. Mr. Burch.
    Mr. Burch. Yes, sir. I think as it relates to making grants 
available for States to do this, and recognizing each State, 
each local jurisdiction may have its own preferences and 
desires, we are funding efforts, through organizations such as 
the Justice Management Institute, to go out and provide 
training and technical assistance to States to go through that 
process of determining what is evidence-based, what is the 
smarter approach to sentencing.
    And then this year we have offered funding for something 
called the field initiated innovations parogram. I note that we 
go a couple of applications from the field to begin applying 
that funding to change the way the system works in terms of 
sanctions. Arkansas was one example where we received a 
proposal like that this year. So there is really, I think, a 
lot of movement in this direction.
    Mr. Kucinich. Incarceration rates, as I am sure both of you 
know, in the United States, are much higher than those in 
Western Europe and other developed nations. Does either the 
ONDCP or the Department of Justice approach the issue of 
incarceration for drug offenses in a comparative perspective 
and analyze the success and failures of other nations' 
approaches to drug crime and punishment? Mr. Burch.
    Mr. Burch. Thank you, sir. I know that our National 
Institute of Justice does have an international component where 
we are looking at what is happening in other countries and how 
to apply those lessons learned to this country. The Bureau of 
Justice Assistance has done the same this year in making a 
grant award to the RAND Corp. to help us identify similar gains 
in other countries, particularly those whose justice system 
looks similar to ours, and helping us understand those lessons 
learned and the best practices from those nations.
    Mr. Kucinich. Mr. Tucker, would you like to add to that?
    Mr. Tucker. I would just add that I think it is pretty 
clear that we get, what we have been doing up to now has not 
been good, nor effective. I think it is why we are here talking 
about alternatives to incarceration, why the current drug 
control strategy has this broad approach to thinking about that 
cycle.
    When we talk about breaking the cycle, we are talking about 
crime, delinquency and incarceration in every respect and as it 
relates in particular to incarceration, the notion that we 
recognize that too many people are incarcerated and we are 
trying to redirect, along with our partnership agencies, 
including DOJ, to think about ways in which we can get some 
relief in that respect, both at the front end in terms of 
keeping people out of the system in the first place, focusing 
on prevention and looking at ways in which that prevention can 
impact the most at-risk people, such as young people in 
particular, but also adults who happen to be using or addicted.
    Mr. Kucinich. I want to talk for a moment about women with 
children. Women are the fastest-growing segment of the 
incarcerated population, increasing at nearly double the rate 
of men since 1985. Among female State prisoners, two thirds are 
mothers of a minor child. Children of inmates are five to six 
times more likely to become incarcerated than their peers.
    This makes providing alternatives to incarceration for 
mothers even more critical than other populations. Your 
testimony refers generally to diversion initiatives focused on 
women with children.
    What specific actions are being taken to encourage 
diversion initiatives in this particular group, women with 
minor children? I would like to hear from both of you.
    Mr. Burch. I will take the first shot at that, if I could, 
Mr. Chairman. One of the things that we have noticed in 
examining this issue is the prevalence of mental health issues 
among women, in particular, in jail, but also in prison. This 
is something that we want to understand better, because we 
think this may represent the best point of intervention for us 
and the best point of being able to divert women from the 
justice system. So we are working together with the National 
Institute of Corrections at the Department as well as other 
organizations to better study this issue. Once we identify 
those points of intervention, we will then move on them very 
quickly.
    But we also have made a lot of efforts toward making sure 
that we are providing opportunities to connect those women with 
their families and children, but also focusing as well on 
fathers. You may know the White House has an expansive 
initiative this year with us to focus on fatherhood issues. And 
we will continue to do that as well.
    Mr. Kucinich. Mr. Tucker.
    Mr. Tucker. No question, we need to do more there as well 
with respect to this population. And ONDCP as part of our 
overall strategy is supporting the various programs that exist 
to facilitate and to create a resource or provide resources 
that will help us deal with the problem that you just described 
with respect to mothers and children.
    It is, to the extent that children are impacted, we need to 
make sure that when we are talking about prevention it is 
clearly, we recognize it is more cost-effective to impact those 
youngsters as early as possible to prevent them from falling 
into the same habits of drug abuse that perhaps their parents 
have.
    Mr. Kucinich. Is there much time being spent going into 
these institutions and talking to the women about their 
situation and what is being done to care for their children? 
What happens? Because the children end up paying a penalty, 
too.
    Mr. Tucker. Just from my personal experiences in this 
regard, I go way back. I agree with you, and I recognize that 
children pay the price because of domestic violence, because of 
drug use. More recently, as it relates to drug-endangered 
children with respect to methamphetamine, for example, but also 
in a much broader context.
    So we recognize the impact on children. I know that we 
currently have a working group that involves a number of the 
participating Federal agency partners to look at the issue of 
the impact on children as it relates to drugs, meth in 
particular. But I think there is a desire to look at it in a 
broader context as well.
    Mr. Kucinich. Mr. Tucker, just one final question. Your 
testimony acknowledges the promising result of the HOPE testing 
and sanctions community supervision program. How is ONDCP 
working with Congress and States to further support pilots and 
demonstration projects of HOPE and HOPE-type programs?
    Mr. Tucker. We acknowledge that HOPE is recognized as a 
success. We want to look at it in a much broader context. While 
HOPE has been successful, we are not looking at it in the 
context of only HOPE, but also other drug courts and other 
types of programs that provides the same kinds of approaches to 
dealing with offenders.
    So it is, while we recognize that HOPE has had its success, 
I think we also want to look at it in a broader context, and 
continue to look at and analyze some of the new models, new 
jurisdictions that are going to be trying to implement the HOPE 
model and to see whether or not what happened in Hawaii and how 
effective it was translates to the same type of success in 
other jurisdictions.
    Mr. Kucinich. I want to thank both of you for your 
testimony and for your presence at this subcommittee today. The 
subcommittee members will have followup questions to present to 
you in writing. And I appreciate your answering them to help us 
in our work.
    I am going to dismiss this panel and we are going to take a 
very brief, 3-minute recess while staff prepares the table for 
the next panel. So again, thank you very much. Your attendance 
is appreciated. We are going to move to the second panel 
momentarily.
    Mr. Tucker. Thank you, Mr. Chairman.
    Mr. Burch. Thank you very much.
    [Recess.]
    Mr. Kucinich. Thank you very much. We are going to begin 
the testimony from the second panel. And it is a panel with 
extensive background in this area. I think we will be moving 
expeditiously through your testimony. I know that a number of 
you have commitments that are time-sensitive. This hearing 
already is about an hour and a half behind schedule.
    So I am mindful of that. I think that if all goes well, we 
could probably get out of here within the hour, if that will 
work for everyone. That will be my goal. And we have no other 
votes for this evening, so that gives us a pretty good clear 
track.
    I will begin by making introductions of the second panel of 
witnesses. Angela Hawken, welcome. Angela Hawken is Associate 
Professor of Economics and Policy Analysis at the School of 
Public Policy at Pepperdine University. She taught graduate 
economics in South Africa before moving to Los Angeles in 1988 
to complete a Ph.D. in policy analysis at the RAND Graduate 
School.
    She teaches graduate classes in applied research methods, 
statistics, crime and social policy. Professor Hawken led the 
statewide cost-benefit analysis of California's alternative 
sentencing initiative, Proposition 36, and the randomized 
control trial of Hawaii's HOPE probation.
    John Roman. Mr. Roman is Senior Research Associate in the 
Justice Policy Center at the Urban Institute, where his 
research focuses on evaluations of innovative crime control 
policies and justice programs. He is also the executive 
director of the District of Columbia Crime Policy Institute 
where he directs research on crime and justice matters on 
behalf of the Executive Office of the Mayor.
    Dr. Roman is directing several studies funded by the 
National Institute of Justice, including a national study of 
the demand for community-based interventions with drug-involved 
arrestees. Dr. Roman also manages the national evaluation of 
adult drug courts, and is co-editor of the cost-benefit 
analysis in crime control and juvenile drug courts and teen 
substance abuse. Dr. Roman also serves as a lecturer at the 
University of Pennsylvania and an affiliated professor at 
Georgetown.
    Douglas B. Marlowe is Chief of Science, Law and Policy for 
the National Association of Drug Court Professionals, a senior 
scientist at the Treatment Research Institute and an adjunct 
associate professor of psychiatry at the University of 
Pennsylvania School of Medicine. A lawyer and clinical 
psychologist, Dr. Marlowe has received numerous State and 
Federal research grants to study coercion and drug abuse 
treatment, the effects of drug courts and other diversion 
programs for drug abusers involved in the criminal justice 
system, and behavioral treatments for drug abusers and criminal 
offenders. Dr. Marlowe has published over 125 professional 
articles and chapters on the topics of crime and substance 
abuse and is editor in chief of the Drug Court Review.
    Daniel N. Abrahamson is Director of Legal Affairs for the 
Drug Policy Alliance, an organization devoted to drug policy 
and drug law reform. Mr. Abrahamson is co-author of 
California's Proposition 36, the Substance Abuse and Crime 
Prevention Act enacted in 2000 and served on several statewide 
committees overseeing implementation and evaluation of the act.
    Mr. Abrahamson has litigated public health matters in State 
and Federal courts. He has taught interdisciplinary courses on 
criminal justice and public health at Yale, Fisk, Hastings 
College of Law, and the University of California Berkeley 
School of Law.
    Ms. Melody M. Heaps founded Treatment Alternatives for Safe 
Communities, TASC, in 1976, and led it until her retirement as 
president in 2009. She is currently President Emeritus and a 
consultant to TASC. Under Ms. Heaps' leadership the agency grew 
from a small pilot program in Cook County, Illinois, to a $20 
million statewide organization providing direct services to 
25,000 individuals annually.
    Ms. Heaps began her professional career as a community 
organizer and joined the Southern Christian Leadership 
Conference as one of Dr. Martin Luther King, Jr.'s staff during 
the Chicago campaign. She also helped develop and implement the 
National Institute on Drug Abuse's judicial training curriculum 
and organized the first national managed care and criminal 
justice conference. Ms. Heaps has provided consultation 
services for numerous public and private agencies, including 
ONDCP, and served on numerous drug policy-related task forces.
    Finally, Mr. Harold A. Pollack. Mr. Pollack is the Helen 
Ross Professor at the University of Chicago School of Social 
Science Administration and faculty chair of the Center for 
Health Administration Studies, and is also a co-director of the 
University's crime lab. He is published widely on the interface 
between poverty, policy and public health. His substance abuse 
policy research appears in such journals as Addiction, Journal 
of the American Medical Association, American Journal of Public 
Health, Health Services Research and other leading peer-
reviewed journals. Professor Pollack has been appointed to 
three committees at the National Academy of Sciences.
    As we can see, we have a distinguished panel of witnesses. 
It is our privilege to have you appear to testify in front of 
this subcommittee.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. I would ask that you rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you. Let the record reflect that each 
of the witnesses answered in the affirmative.
    I would ask that each of you give an oral summary of your 
testimony. The entire account of your testimony will be 
included in the record of the hearing. We just want to get a 
general idea of what it is you are presenting.
    I would also like to add for the record that the statements 
of this particular panel were very thorough, very thoughtful. I 
want to commend you for that. Much appreciated.
    Professor Hawken, you are our first witness on this panel. 
I would ask that you begin.

  STATEMENTS OF ANGELA HAWKEN, PH.D., ASSOCIATE PROFESSOR OF 
ECONOMICS AND POLICY ANALYSIS, SCHOOL OF PUBLIC POLICY; JOHN K. 
    ROMAN, SENIOR RESEARCHER, JUSTICE POLICY CENTER, URBAN 
 INSTITUTE; DOUGLAS B. MARLOWE, J.D., PH.D., CHIEF OF SCIENCE, 
      LAW AND POLICY, NATIONAL ASSOCIATION OF DRUG COURT 
PROFESSIONALS; DANIEL N. ABRAHAMSON, DIRECTOR OF LEGAL AFFAIRS, 
  DRUG POLICY ALLIANCE; MELODY M. HEAPS, PRESIDENT EMERITUS, 
   TASC, INC.; AND HAROLD A. POLLACK, HELEN ROSS PROFESSOR, 
UNIVERSITY OF CHICAGO SCHOOL OF SOCIAL SCIENCE ADMINISTRATION, 
 FACULTY CHAIR OF THE CENTER FOR HEALTH ADMINISTRATION STUDIES

                   STATEMENT OF ANGELA HAWKEN

    Ms. Hawken. Good afternoon, Mr. Chairman. Thank you for the 
opportunity to testify today.
    I would like to discuss the experience of offender 
management in two States, California and Hawaii, and then end 
with a short list of recommendations of how the Federal 
Government might improve offender management with a goal of 
reducing incarceration.
    In the 1990's, hundreds of pieces of legislation were 
passed in California, all of them tough on crime. Prop 36 was 
the first measure to turn the tough on crime tide. Under Prop 
36, non-violent drug offenders had the opportunity of being 
sentenced to community-based treatment, rather than to prison 
or jail, or to probation without treatment.
    Keeping drug users out of our jails and prisons made a lot 
of sense to me, so I was very pleased to be invited to lead the 
cost-benefit analysis to study the effects of the law.
    This work showed that in the beginning, Proposition 36 
saved Californian taxpayers a great deal of money, as these 
drug users were diverted from our prisons and jails. But my 
enthusiasm for Prop 36 began to dwindle as more and more data 
showed that those initial years were a honeymoon period, and 
very soon the prison diversion dried up. Many probationers made 
their way back into the prison system.
    Why did this policy fail? Many reasons. Under Prop 36, 
every probationer has to be treated. This is true for diversion 
programs in general. Every probationer, even probationers 
without a diagnosable substance abuse condition. With limited 
treatment resources, if everybody must be treated, this results 
in a little bit of nothing for everybody. Treatment resources 
are spread very thin.
    There was next to no accountability under Prop 36. Nearly a 
quarter of the probationers who accepted sentencing and a 
deferral to treatment never appeared for a treatment session. 
Only a third of those who did appear for treatment actually 
completed the program.
    A UCLA study asked, what was the consequence for no-show? 
The modal response, that is the most common response, was 
nothing. Nothing isn't very motivating.
    Proposition 36 was enacted into law as the Substance Abuse 
and Crime Prevention Act. But the experience was quite the 
opposite. Criminal activity among this group increased. Even 
the best of the best, those who made it all the way through 
their treatment program and had a successful discharge, even 
this group had high rates of followup arrests and convictions 
than a comparison group of pre-Proposition 36ers.
    Over half of them were arrested on a new drug charge while 
under Proposition 36, and over a quarter were arrested for non-
drug charges. Of those non-drug arrests, about a quarter were 
for violent crimes against other persons.
    There is very little accountability in the system. 
Compliance under Prop 36 is so poor that when surveyed, 80 
percent, that is eight zero, 80 percent of California treatment 
providers support a change in the program to allow the use of 
short jail stays to motivate treatment compliance.
    There is another little-discussed sad consequence of 
Proposition 36. When our treatment system is flooded with 
referrals from the criminal justice system, something has to 
give. Dr. Ian Hughes' research from UCLA has shown that what 
gives are those people who entered the system with a self-
referral. People who are self-motivated to seek out care are 
being displaced. We have never studied the consequences of 
pushing these drug users out of our system. Our expectations 
are that these are primarily alcohol-individuals, and as you 
know, alcohol is by far our most dangerous drug. My expectation 
is a study of this kind would show quite devastating 
consequences.
    Loosening the reins on drug offenders has not provided a 
meaningful alternative to incarceration in California. As you 
can tell, I was very disheartened by the Prop 36 data. And just 
about that time, I heard of a new program in Hawaii that was 
supposedly transforming probationers' lives. The program was 
called HOPE, Hawaii's Opportunity Probation with Enforcement. 
It was designed by a judge, in collaboration with police 
officers, with probation officers, with prosecutors, with 
public defenders. Together they tried to resolve the problem.
    Revoking probation is very serious. It often results in 
years, typically months but sometimes years of incarceration, 
which leaves probation officers with a dilemma. If their 
probationers are not complying, they have only one of two 
choices. They can either let those boo-boos go unchecked, boo-
boo after boo-boo, typically 16, 17 violations before anything 
is done, or they can revoke probation. If they revoke 
probation, the response is usually very draconian, which lets 
very little in between.
    If you have ever had a dog, you will know this is not how 
you train a puppy. You don't spank them on the 17th puddle. You 
make sure they understand the consequences at every step along 
the way. But that is not how we have managed our probationers. 
We have sent extremely mixed signals to them.
    So Hawaii completely redesigned the system of how they 
handle probation. The probationers are brought into open court 
and given a warning hearing, where they are told that the 
conditions of probation are completely unchanged; the only 
difference from now on is that they will actually be followed 
through on. There is some honestly injected into the system.
    They are also assigned a color that day, and every weekday 
morning they have to call a hotline. If their color comes up, 
they have to go for a drug test. If they test positive, they 
are immediately arrested and taken before a judge and sentenced 
to a brief stay in jail, typically a few days, on a weekend if 
they are employed.
    When speaking with probationers, we use the language of, I 
don't use any more, because knowing that I might go to jail 
tomorrow ruins the high. Ruining the high is a good thing. If 
they continue to test negative, in other words, good behavior, 
they get to change their color and they are tested less 
regularly and ultimately earn their way off of testing 
entirely.
    Under HOPE, probationers only come before the judge if they 
violate. This is a distinct difference between HOPE and the 
drug court approach, which helps to save on the judiciary 
resources, which has very large implications for costs of 
running the two models.
    From the very beginning, we collected data on HOPE with the 
help of the Attorney General's office. There have now been two 
evaluations. One of those included an intent to treat 
randomized control trial. The subjects in a randomized control 
trial had long histories of criminal justice involvement, long 
histories of drug use. They averaged 17 priors by the time they 
entered the study.
    The outcomes have been striking. There were large 
reductions in drug use. By 3 months and 6 months we saw 80 
percent, 90 percent reductions in drug use. Comparing HOPE 
probationers to a control group of probationers as usual, we 
found large reductions in no-shows, large reductions in 
arrests, they were slashed in half, large reductions in 
revocation. That is very important because of what that means 
for incarceration. There were huge differences in the number of 
days incarcerated between the two groups.
    We have this counter intuitive result that a program that 
allows swift and certain jail sanctions has an overall 
reduction, large reduction, in incarceration. We found an 
average of 130 prison days saved per probationer.
    The other advantage of HOPE is that it provides a strategic 
approach for managing our limited drug treatment resources. I 
like to call HOPE a behavioral triage model, where we decide 
who needs treatment based on their observed behavior. And in 
HOPE, 80 percent of these drug-involved probationers were able 
to desist from drug use without any treatment whatsoever. What 
that meant is we could divert 80 percent of the treatment 
dollars to the 20 percent of the group who really did need 
care. What that meant was Cadillac-level treatment for those 
probationers.
    What about the probationers? They liked it. Figure 2 of my 
testimony that I submitted showed a survey of HOPE 
probationers. Across the board, they give the program high 
praise. Even those who were surveyed while they were serving a 
jail sentence under HOPE had positive reviews of the program.
    So no doubt in Hawaii, HOPE has been a success. It is 
showing that probation can indeed be a meaningful alternative 
to incarceration.
    Another important point to note is that HOPE isn't only 
being applied to drug offenders. It is also letting in people 
who committed other sorts of crimes while under the influence. 
So we are seeing many people coming in, property crimes too, 
and even some violent offenders are being successfully 
supervised under HOPE.
    The HOPE court now oversees 1,600 probationers and it is 
not a dedicated court. That judge also tries other cases. And 
the dedicated HOPE court is expected to oversee 3,000 
probationers. One court, 3,000 probationers. The cost 
implications of being able to oversee such a large load 
successfully are enormous.
    At the moment, we are in such trouble, we really do need a 
mass solution. And a mass solution requires an inexpensive 
response. HOPE has been shown to be that inexpensive response.
    Briefly, we need to replicate this. We have seen it in 
Hawaii. It has to be replicated on the mainland. We need to see 
what elements are essential. We just don't know. Ideally, a 
continuum of supervision, which the others will talk about, 
where HOPE is on the front end, nice and cheap, moving them 
into drug courts with its wrap-around services for those who 
can't survive the HOPE program.
    Thank you.
    [The prepared statement of Ms. Hawken follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.028
    
    [GRAPHIC] [TIFF OMITTED] T5558.029
    
    [GRAPHIC] [TIFF OMITTED] T5558.030
    
    [GRAPHIC] [TIFF OMITTED] T5558.031
    
    [GRAPHIC] [TIFF OMITTED] T5558.032
    
    [GRAPHIC] [TIFF OMITTED] T5558.033
    
    [GRAPHIC] [TIFF OMITTED] T5558.034
    
    [GRAPHIC] [TIFF OMITTED] T5558.035
    
    [GRAPHIC] [TIFF OMITTED] T5558.036
    
    Mr. Kucinich. Thank you very much.
    Mr. Roman.

                   STATEMENT OF JOHN K. ROMAN

    Mr. Roman. Mr. Chairman, Thank you for the opportunity to 
speak today.
    The U.S. criminal court system has two broad mechanisms to 
protect citizens from crime by drug-involved offenders. 
Offenders can be closely supervised and imprisoned, or public 
safety could be improved by employing more sophisticated 
interventions that both rehabilitate and deter.
    For two decades, decisions have been made as if this was a 
zero sum game, a choice between protecting the public and 
helping offenders onto a better path. We have consistently 
chosen detection and punishment. But there is growing empirical 
evidence that this choice has led to more spending and more 
crime than would have been the case via a more balanced 
approach.
    The challenge is to identify the right mix of intervention. 
To address this, I want to briefly discuss three issues today.
    First, do those who enter drug court do better than if they 
were subject to more routine case processing? Despite dozens of 
studies, existing research has not yet definitively answered 
whether drug courts reduce crime and drug use.
    To answer this question, in 2004 the Urban Institute, RTI 
International and the Center for Court Innovation received 
funding from the National Institute of Justice to conduct a 
rigorous, multi-site evaluation of adult drug courts. In this 
study, we interviewed over 5,000 offenders, conducted more than 
1,000 drug tests and collected data on drug court clients in 23 
drug courts in 8 States, and drug-involved offenders going 
through regular court processing in 4 of the 8 States. That was 
our comparison group.
    We found that drug court participants self-report 
significantly less criminal behavior than the comparison group. 
During the 18-month tracking period, for instance, the total 
number of criminal acts was reduced by 52 percent. The 
reductions in offending persisted throughout the observation 
period, even after most in the treatment group had left drug 
court. We also found that significantly fewer drug court 
participants self-reported drug use in the comparison group.
    Finally, we find that drug courts are cost-effective. The 
average net benefit to society is about $4,000 per drug court 
participant regardless of how well that participant did in drug 
court.
    Second, given these results, we want to ask the question, 
why aren't more drug-involved offenders getting into drug 
courts? I estimate that some time this year, in 2010, after two 
decades of drug court operations, the one millionth drug-
involved offender will enter a drug court. That achievement is 
cause for both applause and concern. While drug courts are now 
fixtures in most criminal courthouses, the rate at which 
offenders enroll is only growing very slowly. Each year, barely 
3 percent of drug-involved offenders in need of treatment enter 
a drug court because of severe restrictions on eligibility.
    Expansion of drug courts is also slowed by a lack of funds, 
limited treatment availability and concerns that drug court 
clients treated in the community may commit new crimes that 
prison would have prevented. A 2008 Urban Institute study 
examined whether expanding drug court to more drug-involved 
offenders is cost beneficial. While we found that there are 
about 1\1/2\ million drug-involved arrestees entering the court 
system annually, we estimated only about 55,000 were treated in 
drug court. Again, that is less than 4 percent of all drug-
involved arrestees and less than 1 percent of all arrestees.
    We estimate that the United States spends slightly more 
than half a billion dollars a year to treat drug court clients. 
This investment yields more than a billion dollars in savings. 
So $2 in benefits for every $1 in cost.
    We then tested what those costs would be if those offenders 
commonly excluded from drug court were allowed into drug court. 
We found in every category but one the benefits of adding these 
drug court clients exceeded the costs of treatment. Expanding 
drug court to all 1\1/2\ million drug-involved offenders would 
be expensive, with a price tag exceeding $13 billion annually. 
But the return would be more than $40 billion in benefits each 
year.
    Third, given that drug courts are cost-effective but 
limited in their reach, how can the criminal justice system 
maximize their use without adding billions in new costs? One 
way would be to use less expensive strategies to identify 
defendants who can be encouraged to desist from offending, 
allowing drug courts to focus on those who cannot. For example, 
drug courts in a program like Hawaii's project HOPE could be 
linked to provide a continuum of more effective interventions 
for pre-trial defendants.
    Adding a HOPE-like front-end diversion program would 
dramatically increase the criminal justice system's ability to 
manage drug-involved offenders in the community. This would be 
far less expensive than incarceration, would result in less 
crime and those who failed could go to drug court, which is in 
itself a cheaper, more effective option than prison. However, 
despite drug court success, without some dramatic expansion of 
effective supervision strategies, there is little reason to 
believe that the amount of crime committed by drug-involved 
offenders can be substantially reduced using current 
approaches.
    Thank you, and I would be happy to answer your questions.
    [The prepared statement of Mr. Roman follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.037
    
    [GRAPHIC] [TIFF OMITTED] T5558.038
    
    [GRAPHIC] [TIFF OMITTED] T5558.039
    
    [GRAPHIC] [TIFF OMITTED] T5558.040
    
    [GRAPHIC] [TIFF OMITTED] T5558.041
    
    [GRAPHIC] [TIFF OMITTED] T5558.042
    
    [GRAPHIC] [TIFF OMITTED] T5558.043
    
    [GRAPHIC] [TIFF OMITTED] T5558.044
    
    [GRAPHIC] [TIFF OMITTED] T5558.045
    
    [GRAPHIC] [TIFF OMITTED] T5558.046
    
    [GRAPHIC] [TIFF OMITTED] T5558.047
    
    [GRAPHIC] [TIFF OMITTED] T5558.048
    
    [GRAPHIC] [TIFF OMITTED] T5558.049
    
    [GRAPHIC] [TIFF OMITTED] T5558.050
    
    [GRAPHIC] [TIFF OMITTED] T5558.051
    
    [GRAPHIC] [TIFF OMITTED] T5558.052
    
    [GRAPHIC] [TIFF OMITTED] T5558.053
    
    [GRAPHIC] [TIFF OMITTED] T5558.054
    
    [GRAPHIC] [TIFF OMITTED] T5558.055
    
    [GRAPHIC] [TIFF OMITTED] T5558.056
    
    [GRAPHIC] [TIFF OMITTED] T5558.057
    
    Mr. Kucinich. Mr. Marlowe.

                STATEMENT OF DOUGLAS B. MARLOWE

    Mr. Marlowe. Good afternoon, Mr. Chairman, other members of 
this distinguished committee.
    As Chief of Science and Policy for the National Association 
of Drug Court Professionals, it should not be surprising to you 
that I will begin my testimony by arguing that drug courts work 
and presenting the evidence. What might surprise you is that I 
will argue that drug courts do not work for everybody. They 
should not be applied to everybody in the criminal justice 
system. We do need a continuum of interventions that include 
multiple evidence-based programs, to include Proposition 36, to 
include Project HOPE in Hawaii and other interventions.
    First, the clear message about drug courts. Drug courts 
work. In fact, there are people in this room right now taking 
medications for cancer, heart disease, asthma that have less 
proof of efficacy than drug courts. The highest level of 
scientific proof comes from what are called meta-analyses. 
These are when scientists that are not part of the drug court 
field review all of the studies that have been done on drug 
courts, select out only the ones that are scientifically 
rigorous, and then average the effects of the intervention 
across all of those studies.
    The placards at the front of the room show the results of 
five meta-analyses conducted by independent organizations, all 
concluding that drug courts reduce crime by an average of 
approximately 10 to 15 percent better than the alternative. But 
that masks a lot of variability. The best drug courts cut crime 
rates in half, which is unbelievable. The worst drug courts 
increase crime rates, sometimes by as much as 15 to 20 percent.
    The important question is, what separates the good drug 
courts from the bad drug courts? And the answer is two-fold. 
The first is, the good drug courts treat the hardest offenders. 
They do not pick offenders who could be handled in Proposition 
36. They do not treat offenders who would respond to Project 
HOPE. We take the ones who are seriously addicted, or should 
take the ones who are seriously addicted, the ones who other 
programs can't handle, the ones who drop in and out of 
treatment, who fail repeatedly on probation and who keep 
committing crimes.
    The drug courts that treat those offenders get large 
effects. The drug courts that treat the easier offenders get 
small effects. Why? Because they are no better than the 
alternative. Easy offenders get better in any program. So drug 
courts are not worth the extra expense for those individuals.
    Second, when drug courts are treating the appropriate 
target population, the effective drug courts hold the line. 
They do not skimp on treatment. They do not cut back on 
supervision. And God no, they do not give offenders multiple 
chances to act out without being held accountable for their 
actions.
    But what about the other offenders who can do well in other 
programs? What about the offenders who are not in fact addicted 
to drugs or alcohol? More than half of drug offenders are not 
clinically addicted, and therefore treatment services are not 
appropriately indicated to that population. Programs such as 
project HOPE bring behavioral principles to bear that have not 
been brought to bear in standard probation practice. It is 
about time, and that program should be extended throughout the 
country at the State, national, local level, with the 
appropriate evidence guiding its implementation and evaluation.
    For individuals who are addicted to drugs or alcohol, who 
have real drug problems but are not antisocial, who would be 
willing and able to go to treatment on their own, they don't 
need drug courts. They can and did respond well to Proposition 
36. Proposition 36 was effective with about 25 percent of the 
population. That 25 percent were exactly where they needed to 
be. It was the other 75 percent who were not.
    Which brings us to Congress' role. First, there are many 
drug courts still treating non-addicted low-risk offenders. The 
Drug Court Discretionary Grant Program and other Federal 
funding needs to require drug courts as a condition of Federal 
funding to treat their appropriate target population of high-
risk offenders, including violent offenders. We can talk about 
that during the questions.
    Second, drug courts are treating about 5 to 10 percent of 
the eligible population. It is time to fund drug courts at the 
level that was originally intended in the crime control bill in 
the 1990's, which was $250 million a year, which is a drop in 
the bucket compared to what we pay for incarceration and other 
correctional costs in this country.
    Third, we need evidence-based sentencing. It is not fair to 
hold the people in this room accountable for poisoning our 
stream when the poison is entering the water five miles uphill. 
The problem with individuals being put into the criminal 
justice system is at the point of law enforcement contacts, 
prosecution charging practices and excessive punishment. That 
brings in evidence-based sentencing, and that is what we need.
    Thank you very much, and I am happy to answer questions 
when the time comes.
    [The prepared statement of Mr. Marlowe follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.058
    
    [GRAPHIC] [TIFF OMITTED] T5558.059
    
    [GRAPHIC] [TIFF OMITTED] T5558.060
    
    [GRAPHIC] [TIFF OMITTED] T5558.061
    
    [GRAPHIC] [TIFF OMITTED] T5558.062
    
    [GRAPHIC] [TIFF OMITTED] T5558.063
    
    [GRAPHIC] [TIFF OMITTED] T5558.064
    
    [GRAPHIC] [TIFF OMITTED] T5558.065
    
    [GRAPHIC] [TIFF OMITTED] T5558.066
    
    [GRAPHIC] [TIFF OMITTED] T5558.067
    
    [GRAPHIC] [TIFF OMITTED] T5558.068
    
    [GRAPHIC] [TIFF OMITTED] T5558.069
    
    [GRAPHIC] [TIFF OMITTED] T5558.070
    
    [GRAPHIC] [TIFF OMITTED] T5558.071
    
    [GRAPHIC] [TIFF OMITTED] T5558.072
    
    [GRAPHIC] [TIFF OMITTED] T5558.073
    
    [GRAPHIC] [TIFF OMITTED] T5558.074
    
    [GRAPHIC] [TIFF OMITTED] T5558.075
    
    Mr. Kucinich. Thank you, Mr. Marlowe.
    Mr. Abrahamson.

               STATEMENT OF DANIEL N. ABRAHAMSON

    Mr. Abrahamson. Thank you, Mr. Chair, for inviting me to 
speak today. I am going to speak about California's Substance 
Abuse and Crime Prevention Act of 2000, which represents the 
most significant piece of sentencing reform legislation in 
terms of the number of people diverted from incarceration and 
the dollars saved since the repeal of alcohol prohibition in 
1933.
    Now, Prop 36 came about as a direct response to the 
shortcomings of California's drug courts. Those shortcomings 
included severe restrictions on who got access to drug courts, 
prosecutors and judges frequently cherry-picking clients for 
the program, who they thought would be most likely to succeed, 
as opposed to those were most in need of drug treatment.
    Another problem with drug courts was judges, not treatment 
professionals, making decisions about appropriate treatment 
placements. Relatedly, a vast majority of California drug court 
judges, and this is true, I think, across the United States, 
denied opiate-dependent persons access to the most successful 
and proven treatments for their condition, namely methadone and 
buprenorphine.
    Finally, drug courts in California frequently used jail 
sanctions to respond to drug use relapse even though relapse is 
a natural condition in part of being addicted.
    Prop 36 sought to create a more health-centered approach to 
drug treatment within the criminal justice system. To this end, 
Prop 36 eliminated cherry-picking of clients by making eligible 
all persons convicted of non-violent drug possession offenses 
who did not have a recent history of violence. Treatment 
professionals determine appropriate treatment placements. And 
medically assisted treatments such as methadone and 
buprenorphine cannot be denied persons who need them.
    Further, drug testing is used solely as a treatment tool, 
not as a grounds to impose punitive sanctions. And in fact, 
Prop 36 prohibits the imposition of short-term jail sanctions 
to respond to drug-related violations such as drug use relapse.
    Prop 36 is perhaps the most rigorously evaluated treatment 
diversion program in the country. Over a series of 5 years, 
researchers at the University of California and elsewhere 
collected data, crunched it and published it. Their findings 
include the following: 36,000 people a year in California took 
advantage of Prop 36, roughly 10 times the number that were 
eligible and took advantage of drug courts in California.
    Importantly, one half of all clients entering Prop 36 had 
never accessed drug treatment before. This was their first 
option and opportunity to get drug treatment. Moreover, Prop 36 
treated persons with very serious addictions. Over one half of 
all Prop 36 clients had used drugs on average of 11 or more 
years. These were not low-level, first-time drug users. And in 
fact, over half, or roughly half of Prop 36 clients were there 
for methamphetamine use. And they succeeded in completing the 
program at the same rates as other drug users in Prop 36.
    Importantly, completion rates for Prop 36 ranged, from 
county to county, from 30 to 60 percent, which is almost 
exactly on par with the range of success rates of drug courts, 
both in California and nationally. And as UCLA itself reported, 
$2 to $4 was saved for every $1 invested in Prop 36.
    In short, we believe that Prop 36 represents an important 
improvement upon drug courts as they then existed in 
California.
    But to end the discussion here would be misleading. In the 
larger scheme of things, drug courts and Prop 36 are simply 
stop-gap measures, and they always will be. As long as 1.4 
million people are arrested every year for nothing more than 
simple drug possession, drug cases will continue to swamp the 
criminal justice system and cause unnecessary misery. Neither 
Prop 36 nor drug courts can solve or even adequately mitigate 
the systemic problems created by continued massive low-level 
drug arrests.
    Tinkering with alternatives to incarceration within the 
criminal justice system will help some people. But it will fail 
a far greater number of others. Mr. Chairman, we need to move 
beyond drug courts to consistent, health-centered approach to 
drug use. We need to end the criminalization of simple drug use 
and provide treatment to drug users outside the criminal 
justice system.
    Thank you.
    [The prepared statement of Mr. Abrahamson follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.076
    
    [GRAPHIC] [TIFF OMITTED] T5558.077
    
    [GRAPHIC] [TIFF OMITTED] T5558.078
    
    [GRAPHIC] [TIFF OMITTED] T5558.079
    
    [GRAPHIC] [TIFF OMITTED] T5558.080
    
    [GRAPHIC] [TIFF OMITTED] T5558.081
    
    [GRAPHIC] [TIFF OMITTED] T5558.082
    
    [GRAPHIC] [TIFF OMITTED] T5558.083
    
    [GRAPHIC] [TIFF OMITTED] T5558.084
    
    Mr. Kucinich. Thank you.
    Ms. Heaps, you may proceed.

                  STATEMENT OF MELODY M. HEAPS

    Ms. Heaps. Thank you, Mr. Chairman. Thank you for this 
opportunity.
    More than any other time in the history of American 
justice, we know what works and what doesn't when it comes to 
criminal justice and drug policy. We have moved beyond the 
platitudes of ``get tough on crime'' or ``just say no.'' It is 
time for a change, and it is time to stop searching for that 
one silver bullet program and put in place what we know works 
all the way from arrest through incarceration through release.
    I would like to discuss a concept called No Entry. It is 
not a new program, per se, but a new way of thinking about the 
administration of justice. It is an idea we have been 
discussing in Illinois with our legislature and with our 
representatives in Congress and particularly I want to 
acknowledge the leadership and support that we have had from 
Congressman Davis in these matters.
    The core premise of No Entry is halting the penetration 
into or further into the justice system. Every phase of justice 
involvement, from arrest to jail to pre-trial to sentencing to 
release is an appropriate time for intervention, an opportunity 
for applying the best of what we know in science and best 
practice, sanctions and supervision, all with the explicit goal 
of preventing further or more severe justice involvement.
    But No Entry is not an automatic or one size fits all 
approach. Rather, it is all about levying the appropriate 
response for the appropriate individual in the appropriate 
circumstances. And I want to acknowledge the work that Dr. 
Marlowe has done in terms of his sentencing and identifying of 
tiers of offenders and how good sentencing ought to be applied.
    The TASC model, which I have had the privilege of leading 
over 40 years, is but one element of the No Entry approach. The 
TASC model emerged in the 1970's under LEAA, as an alternative 
to incarceration. The phrase used at that time is the phrase 
used now: it is time, after 40 years, we got serious and began 
to move ahead with this.
    The TASC model involves the use of an independent case 
management entity to serve as a bridge between criminal justice 
and the treatment system. This entity provides independent 
assessment, diagnosis, treatment planning, referral and ongoing 
recovery management. TASC serves every court in the State of 
Illinois, every criminal court. Last year we conducted 6,700 
clinical assessments and referred 3,800 individuals to 
treatment.
    TASC takes great pride in our effectiveness. Last year, in 
2009, two thirds or 64 percent of all of our clients completed 
treatment successfully, compared to only 33 percent of other 
criminally involved referred clients.
    Additionally, client arrests for drug and property crimes 
were reduced by 71 percent. TASC is obviously cost-effective. 
The cost for TASC in treatment is $5,000 per year. The cost of 
1 year of incarceration is $24,000.
    Over the years, I have worked to expand the TASC model from 
its original court and probation role into other components of 
the Illinois justice system, all the way from diversion at the 
first offenders program that works much like project HOPE, and 
whose data and success rate is equal, to jail treatment 
programs, to re-entry programs. So it is across the spectrum.
    Our basic philosophy hasn't changed in 40 years. What has 
changed is how much we know about what works. Decades of 
research have changed the way drug treatment is applied to 
criminal justice populations. We understand the brain chemistry 
and the chronicity of addiction like never before. We 
understand the overlap between substance abuse and mental 
health.
    We understand that episodic acute care in a treatment 
setting must be followed by long-term recovery management in 
the community. And we understand that new medications are 
developed every year that hold out tremendous promise for 
treating addiction. We know what cognitive and behavioral 
therapies and case management strategies can be applied and are 
most effective.
    So what can Congress do to encourage States to put in place 
everything we know about effective drug and justice policy? I 
have some recommendations. No. 1, I would like us to begin to 
treat this as a system-level issue that will require the 
development of diversion programs or treatment alternatives at 
every juncture of the justice system, thereby requiring a 
multiplicity of partners and programs. There is no one silver 
bullet program. I want to reiterate that.
    The response should be nuanced as to the jurisdictions in 
which they are applied. We have an array of proven initiatives. 
Certainly drug courts is one of them. Project HOPE looks 
promising. There are a number of them. But they all require and 
all include certain basic elements, which can be applied across 
the justice system.
    Addressing alternatives to incarceration on a systems level 
means we need to bring the response to scale. We need to invest 
enough resources that have significant impact on the numbers of 
offenders coming through. Even in Illinois and in TASC in Cook 
County, we were only able to assess 2,700 people. But we know 
that the Cook County jail houses 9,000 individuals every year, 
half of which have a serious drug problem. So bringing it, 
while we have the infrastructure that could bring it to scale, 
the resources are obviously not there.
    Second, I think Congress should consider mechanisms to fund 
demonstration programs that apply a systemic approach. These 
programs would be charged with developing the infrastructure 
and service capacity to intervene with as many justice-involved 
individuals effectively and efficiently. They would leverage 
and expand, leverage and expand, and improve existing programs 
and partnerships such as drug courts, TASC programs and other 
offender management programs. They should also be rigorously 
evaluated for their effectiveness.
    Congress must also use the Justice block grant fund, and I 
know you talked about this early, to incentivize States to 
develop programs for prison crowding. Obviously, the Council of 
State Governments and the Justice Department reinvestment 
strategy is one way to do that. Those States demonstrating a 
reduction in populations and cost offsets applied to expanding 
community treatment should be eligible for a different formula 
for calculating and expanding future year block grant funding.
    Third, I think we need to require the National Institute of 
Drug Abuse to continue to prioritize research and the discovery 
of effective interventions for persons with substance use 
disorders. And further ensure, and I think this is really 
important, that NIDA support efforts to translate that research 
to practice by supporting initiatives such as they do now 
called the Addiction Technology Transfer Center and blended 
conferences, bringing researchers and practitioners together.
    Further, we need to prepare for the impact national health 
care will have on making treatment available for all offenders 
now not eligible for treatment. The advent of universal 
eligibility represents a fundamental shift in treatment funding 
and will likely result in new partners and new types and modes 
of treatment. It will definitely result in new levels of 
planning and coordination.
    Finally, I want to commend the Office of National Drug 
Control Policy on their support for interagency work and 
planning through their interagency work groups. I also want to 
encourage that there be more experiences of blending funding 
between agencies, Justice, SAMHSA, etc., so that supports some 
of the demonstration on other programs.
    And last, what is not in my testimony, I would be remiss if 
I did not say it is time that Congress stopped legislating 
according to the latest drug du jour. It is not the drug du 
jour that is the problem. There will be a new drug available to 
Americans to take their hearts and minds and souls every year, 
every month. What we need to do is look at the issue of 
addiction and what works in terms of helping that addiction as 
opposed to responding to the latest drug of choice.
    Thank you, Mr. Chairman. Thank you. It is a pleasure to be 
here.
    [The prepared statement of Ms. Heaps follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.085
    
    [GRAPHIC] [TIFF OMITTED] T5558.086
    
    [GRAPHIC] [TIFF OMITTED] T5558.087
    
    [GRAPHIC] [TIFF OMITTED] T5558.088
    
    [GRAPHIC] [TIFF OMITTED] T5558.089
    
    [GRAPHIC] [TIFF OMITTED] T5558.090
    
    [GRAPHIC] [TIFF OMITTED] T5558.091
    
    [GRAPHIC] [TIFF OMITTED] T5558.092
    
    [GRAPHIC] [TIFF OMITTED] T5558.093
    
    Mr. Kucinich. Thank you, Ms. Heaps.
    Professor Pollack, you are recognized.

                 STATEMENT OF HAROLD A. POLLACK

    Mr. Pollack. Thank you very much, Mr. Chairman. I also 
would like to acknowledge Representative Davis' wonderful work, 
particularly on behalf of injection drug users in Illinois.
    I would like to emphasize several points today, many of 
which have come up before. First, drug courts and other 
diversion programs help many individuals and are highly cost-
effective and require more resources. These programs cannot as 
currently operated be expected to much reduce the prison 
population. This may seem counter intuitive, so let me say 
something about that. Many diversion programs are based on two 
completely correct premises. One is that treatment reduces drug 
use, and the second is that reducing drug use will reduce 
crime.
    Interventions channel drug-using offenders into treatment 
and for the individuals involved, these interventions are very 
important and effective. So expanding these programs is 
something that deserves high priority.
    When we think about this at the population level, however, 
we see these programs have basic limitations, which helps to 
explain why the proliferation of drug courts and other 
diversion programs has not slowed the incarceration of drug 
users. As noted in our accompanying materials and as has been 
talked about by several previous witnesses, the number of 
Americans incarcerated every year for drug offenses has 
increased since 1980. In our data, the number of prisoners with 
drug problems markedly increased over the past 20 years, 
despite the fact that in many ways the overall drug use 
population is actually going down, at least when we look at 
heroin, cocaine and methamphetamine.
    So what is going on here? There are three obstacles that 
really require attention. The first of which we have discussed 
already is that the overall capacity of drug courts is quite 
limited. Drug courts handle about 55,000 offenders per year. To 
put this in context, there are about a million drug-involved 
offenders that pass through the criminal justice system every 
year. So as several witnesses have discussed, the value of 
something like HOPE as a front-end intervention would be very 
important. But we have to somehow address that obstacle.
    Second, drug courts do serve a relatively low-risk 
population, rather than the much larger criminally active 
groups that are the ones that actually determine the prison 
population. Only 12 percent of drug courts accept clients with 
prior violent convictions. Individuals facing drug selling 
charges, even if the seller is drug-dependent, are often 
excluded. Other charges that routinely lead people to be 
excluded include theft, fraud, prostitution, domestic violence.
    We find in our own statistical work that the typical drug 
court eligibility requirements would exclude about 70 percent 
of newly sentenced offenders who present with heroin, cocaine 
or methamphetamine disorders. So many of the offenders who are 
eligible for drug courts are really not the people who are 
contributing numerically to the prison population right now.
    So as currently operated, drug courts help many, many 
specific individuals. But they can't really be expected to 
reduce the prison population unless we expand the categories of 
individuals that these interventions will serve.
    And this brings us to the third issue that we talk about, 
which is the systematic mismatch between sentencing practices 
and actual criminal careers of drug-involved offenders. And 
this is very much the evidence-based sentencing set of issues 
that have been talked about before. Between 1986 and 2004, the 
median age of newly admitted inmates with cocaine disorders 
increased by 8 years, from 26 years old to 34 years old. We see 
similar, although somewhat less dramatic patterns for other 
substances. We actually don't see the same aging of the 
population for prisoners who don't have drug disorders.
    Why is that important? As drug users get older, they are 
treated increasingly harshly for each successive offense. And 
they become less eligible for a lot of the diversion programs 
that we have. Many of these individuals have long criminal 
careers that include property crime, failed drug tests and 
violations that might land them back in prison. They are 
progressively more likely to get harsh sentences even as we 
know they are progressively less likely to actually be violent 
and to commit violent crimes.
    We examined prison data from the year 2004, and we compared 
young drug-involved offenders to old drug-involved offenders. 
What we found was that drug users under the age of 25 were 
twice as likely to have committed a violent crime, but they 
were much less likely to be labeled habitual offenders or to 
face sentencing enhancements.
    So if we want to prevent violence, policymakers need to 
explore alternative mechanisms, alternative sentencing policies 
and post-release policies that match the dangers that offenders 
are posing. And really, we think there are two different 
populations that deserve attention.
    One is we need to explore the expansion and improvement of 
intensive programs for young drug users. These are by far the 
most violent segment of the drug-using population. They are 
difficult clients to serve. Judging by the standard clinical 
criteria, programs are going to look bad if they really focus 
on this population. They often achieve poor treatment outcomes. 
They can be difficult clients for a lot of programs. The crime 
control benefits of serving this population are very great.
    Two final thoughts. One is that offenders' everyday 
experiences in programs is what is really decisive in 
determining whether programs are effective. And I very much 
agree with the sentiment expressed, we spent a lot of time 
looking for a breakthrough program model or theoretical 
perspective. The quality of how programs are implemented is 
really much more important. And if you say, what is special 
about HOPE, what is special about a lot of interventions, they 
are done well. And that is really important.
    Offenders learn very quickly from their daily experience 
whether a program is going to respond predictively, swiftly, 
and credibly, either to the violations or to their positive 
behavior. If the program responds quickly, you can influence 
offenders. If it doesn't, you very quickly lose the ability to 
be effective in behavior changes. So I think John Roman's work 
certainly speaks to many of these issues very well.
    Finally, we lack strong data to evaluate the most common or 
the most promising interventions. I think it is true that drug 
courts are the most carefully studied interventions we have in 
the area. Even so, recent systematic reviews identify only four 
studies that use random assignments that really reach 
perspective to help us. We need to do more rigorous 
intervention trials, particularly ones that explore how we can 
serve offenders who are unlikely to participate or who are 
unlikely to be permitted to participate in our traditional 
efforts.
    Focusing on the young offenders who need more intensive 
services and the older offenders who are less violent are 
really two areas that we need to emphasize. We do need to 
expand drug courts to serve people who are not currently being 
served. It won't be easy, and an evidence-approach to it is 
quite important.
    Thank you very much, and I would be happy to answer your 
questions.
    [The prepared statement of Mr. Pollack follows:]

    [GRAPHIC] [TIFF OMITTED] T5558.094
    
    [GRAPHIC] [TIFF OMITTED] T5558.095
    
    [GRAPHIC] [TIFF OMITTED] T5558.096
    
    [GRAPHIC] [TIFF OMITTED] T5558.097
    
    [GRAPHIC] [TIFF OMITTED] T5558.098
    
    [GRAPHIC] [TIFF OMITTED] T5558.099
    
    Mr. Kucinich. Thank you to each and every one of you for 
your testimony. As I said, having reviewed the fullness of your 
testimony, I felt very constrained to interrupt any of you. I 
know that some of you were as brief as you could possibly be. I 
appreciate your help with that. I honor your work and your 
presence here.
    We held a hearing last month where the ONDCP Deputy 
Director, Dr. McLellan, and the NIDA had explored the theme of 
treating drug addiction as a disease. What I would like to hear 
from each member of the panel, describe for me the tension 
between the operation of any programs that we are discussing 
here with the idea of criminal punishment for continuing to use 
drugs or suffering from chronic relapsing conditions. 
Underpinning that, assumptions of whether individuals have 
control over that at all. I would like to hear from you.
    So let's start with Professor Pollack and go right down the 
line. Just give me your thoughts about that.
    Mr. Pollack. Well, there are gradations of drug use that 
are important to think about. But it is something that we need 
to approach as a public health concern. And one of the----
    Mr. Kucinich. As a disease? As a health condition?
    Mr. Pollack. Certainly, for people who are dependent, it is 
a disease. Also, many diseases that we treat have behavioral 
components that have common elements with substance use. If you 
look at diabetes, diabetes has a substantial behavioral 
component to it. When people eat candy bars when they're 
diabetic, we don't kick them out of the diabetic clinic. We 
need to understand, many diseases have the kind of 
psychological and behavioral dimensions that we deal with in 
substance abuse as well.
    Mr. Kucinich. Ms. Heaps.
    Ms. Heaps. I understand there is a tension. It always 
amazes me that we don't seem to understand that they are not 
mutually exclusive. We do know that now addiction, beyond a 
reasonable doubt, is a brain disease and it is chronic. There 
are consequences to not complying with treatment. And if that--
--
    Mr. Kucinich. You are saying addiction is a brain disease 
based on neuroscience research?
    Ms. Heaps. Based on the neuroscience and all that we have 
seen. It has been, I think, one of the most remarkable advances 
in treatment by coming to really understand that.
    However, there are consequences to not complying with 
treatment. And if that non-compliance means that individuals 
have engaged in a criminal activity which is at harm in the 
community, they need to pay those consequences. We know very 
much that consequences are important in terms of helping 
individuals comply. Therefore, there has to be an 
understanding.
    Now, does that mean if an individual is in, has complied 
with treatment and has a relapse in the community and is using 
drugs and all of a sudden we yank them back and send them back 
to prison? Not necessarily. It is certainly possible that we 
can look at that person, assess the level of treatment they are 
getting, assess where they are, and like any other disease, 
suggest perhaps a new treatment intervention, a new increase in 
dosage, etc. I think we have to be able to blend more carefully 
what we know about interventions with regard to chronic disease 
models and recovery in the community.
    Mr. Kucinich. Mr. Abrahamson.
    Mr. Abrahamson. [Remarks off mic.] There is no question 
that there should be criminal justice involvement. And that the 
rule for treatment within the criminal justice system is an 
important one and must be provided consistent with evidence-
based proven principles of how to provide that treatment.
    There is a fundamental tension, however, when dealing with 
drug use in and of itself where there is no harm to others or 
property. And there is a fundamental tension in using the 
criminal justice system to assess and to address that type of 
drug use. I believe that fundamental tension of incorporating 
the criminal justice system in those circumstances actually 
serves to undermine core principles of treatment, to weaken 
treatment and distort how treatment is delivered, and that 
treatment ought to be delivered to those persons who should not 
be involved in the criminal justice system in community-based 
settings.
    And that their relapse on drugs, as discussed earlier, as a 
common condition of being addicted, should not be addressed 
through punitive sanctions.
    Mr. Marlowe. Any concept, over-applied, will fail. 
Addiction is a brain disease except when it isn't. People 
require punishment except when they don't. And they require 
treatment except when they don't.
    In other words, there isn't one type of drug-involved 
offender. Most drug-involved offenders do not suffer the brain 
damage that we are referring to as addiction, when they have 
exposed their brain repeatedly to a toxin and changed the 
neurochemistry of their brain in many respects permanently. 
Most offenders are not, in fact, addicts. So treatment----
    Mr. Kucinich. Most offenders are not in fact what?
    Mr. Marlowe. Addicts. Most offenders, drug-involved 
offenders, are abusing, using drugs but have not damaged their 
brain sufficiently. So we need to make a distinction between 
the abusing offenders and the addicted offenders.
    We then need to make a distinction between the antisocial 
offenders and the non-antisocial offender. If somebody is 
addicted and antisocial, they need both treatment and criminal 
justice monitoring. If they are addicted and not antisocial, 
treatment in and of itself would be an appropriate disposition. 
If they are antisocial and not addicted, the criminal justice 
system in its traditional manner would be the appropriate 
disposition. And if they are neither addicted nor antisocial, 
we should divert them out as quickly as possible.
    In other words, if we come up with a policy that 
overapplies one concept to a heterogeneous population, we will 
keep making the same mistakes over and over again.
    Mr. Kucinich. Is that what we are doing?
    Mr. Marlowe. That is what we are doing. No question about 
it. It is a pendulum and you can watch it go back and forth. I 
can predict where the conversation will go over the next 10 
years. Right now we are going toward diverting out, primarily 
because of the extensive correctional costs, legalizing people 
are out pushing for non-consequences. We are going to be moving 
more toward a public health model in and of itself. Crime rates 
will go up. Violence rates will go up.
    Don't you believe for 1 second that the drug problem is 
going down in this country. It may be that there is less crack 
cocaine and methamphetamine. We now see oxycodone, Vicodin, it 
is just changing the face. If we don't do both, hold people 
accountable and provide treatment when it is necessary, we will 
be 10 years from now talking about the failed rehabilitation 
efforts and the need to reincarcerate, because we have been 
there five times before and we will be there five times again.
    Mr. Kucinich. Mr. Roman, and then I have a followup 
question to everybody on the panel after Professor Hawken 
responds.
    Mr. Roman. Let me try and say something that hasn't been 
said. I would really caution against minimizing how much 
criminal activity surrounds drug trade and drug use. The 
correctional system, the courts, the law enforcement----
    Mr. Kucinich. Is anyone here minimizing it?
    Mr. Roman. There are suggestions that a lot of the people 
who are getting into drug courts in particular aren't people 
who have any serious criminal involvement. That is true, 
because we exclude the people with serious criminal involvement 
from drug courts. But the population that we would like to have 
into drug court, if you expand it in the ways that I sort of 
discussed earlier, would be people who have involvement in 
serious criminal activity. So to that extent, the courts do 
seem an appropriate place to work with them.
    That is more true now for two reasons. One is that the 
courts are more and more integrating public health principles. 
We talked about drug courts today, but there are all sorts of 
alternatives.
    Mr. Kucinich. Those principles being?
    Mr. Roman. The sort of principles of including therapeutic 
jurisprudence, this sort of idea that relapse is part of 
recovery, that you don't just the first time somebody relapses, 
you don't just send them back to prison, you give them 
sanctions, the graduated sanctions model. It has really begun 
to permeate the criminal justice system. I think I am more 
optimistic than Doug that we can continue to head in that 
direction and that we should.
    And the other thing is really just from a purely practical 
perspective, our research really suggests that coercion works. 
The main thing that we see in our drug court study that 
predicts how well a drug court works, not practices, but the 
court itself, is how well the judge, how effective the judge is 
at communicating to the defendants in front of them, and that 
courts that really have good judges, good leadership, have the 
best results. Better than we have seen in the public health 
model.
    Mr. Kucinich. Professor Hawken, the question I have asked 
everyone to address is the overall question of treating drug 
addiction as a disease. I know that your background is very 
strong on policy analysis. So help us go in that direction. 
Give us your opinion on this.
    Ms. Hawken. I think we had the example of diabetes earlier. 
If we had a group of 100 diabetics and we looked them in the 
eye tonight and we said, if you wake up tomorrow with diabetes, 
you are going to jail. Well, tomorrow morning all 100 of those 
diabetics are going to continue to be diabetic.
    If we did the same thing with 100 drug offenders, tomorrow 
morning only 20 of them are going to be drug offenders. Eighty 
percent of them are not. That's what the Hawaii data are 
showing us.
    The problem we have is figuring out who is that 20 and who 
is that 80. Who is the true addict and who is just misbehaving? 
Because we don't want to spend our treatment resources on those 
who are just misbehaving.
    This is the issue, we have very weak mechanisms of deciding 
who is in which camp. Primarily we rely on assessments of these 
drug offenders, and the assessments rely heavily on self-
report. Now, if you have ever met a drug offender, you will 
know these guys are not stupid. These are very smart 
individuals. If you tell them, they know very quickly that 
certain kinds of responses will lead to different kinds of 
consequences. So if I exaggerate my drug use, I am likely to 
get a treatment referral rather than a jail stay. The incentive 
is to exaggerate.
    Or if they know that if they under-report their drug use, 
they are more likely to get into a less intensive treatment 
program, well, today they are going to under-report. They lie. 
And we have very compelling evidence, as David Farady's 
research has shown, a 70 percent disconnect between what they 
say and what their hair says they have been doing. My research 
shows a 50 percent disconnect. In other words, we know nothing 
from what they tell us.
    So we are in a pickle. If we could brain scan all of them 
and see the brain damage, we would know who goes where. But 
that is too expensive. We need programs like HOPE, and it 
doesn't have to be HOPE, HOPE is one, we need to experiment 
with others, but that can very quickly help us identify who 
belongs where, who is the true addict and who can be managed 
inexpensively by just looking over their shoulder more closely.
    Mr. Kucinich. You raise a question. Is there a Munchausen 
syndrome amongst addicts, people just making up the degree of 
use?
    Ms. Hawken. Well, misreporting, there is an incentive to 
misreport your drug use if there is an outcome you know that 
you can change. And there ultimately is, there's a decision 
about what will happen with you within the criminal justice 
system, or there is a decision that can be made by someone else 
about where you will end up in the drug treatment system. Those 
are consequences, so you can game. It is a gaming problem.
    Mr. Kucinich. Mr. Marlowe, I saw you shaking your head 
there.
    Mr. Marlowe. The problem with addicts is not over-
reporting. The problem with addicts is under-reporting. 
Munchausen syndrome is so that you can gain positive attention. 
Since addicts don't get positive attention in our society, it 
is never the part of a Munchausen syndrome. The issue is to be 
able to identify the person who is minimizing their drug use, 
who really has an addiction problem. And the way you do it is 
you talk to their mother, or you talk to their father, or their 
friends. And you will know immediately who the addicts are and 
who the non-addicts are, because their behavior is 
fundamentally different.
    If you are only going to ask them, hey, Mr. Chairman, are 
you an addict or not, and rely on your answer, then you are 
right, we are going to do a lousy job. But if I talk to the 
people who know you, I will know. And if I look at your record 
and your background and treatment, I will know very reliably 
whether or not you are an addict.
    Mr. Kucinich. Which gets into the second question I wanted 
to ask each member for a brief response. Are there predictors, 
social predictors, of who becomes an addict and who does not? 
And the more fundamental question, which I try to ask of 
everyone who testifies in front of this committee, if I have 
the chance to, what is this in our society or any society about 
this tremendous move toward addiction? What is it about, how 
does it happen? Certainly every one of you has a theory about 
what drives addiction generally to anything. But we are talking 
specifically about drugs that can have a very damaging effect 
on peoples' lives.
    So if you would like to try a stab at that in any way, I 
would appreciate it, Professor Hawken.
    Ms. Hawken. I don't think I can give a very good response 
to that. I don't really know. I think we have some evidence on 
genetic links. I think primarily the issue is drugs are very 
nice for most people. They take them and they enjoy them. And 
people want to do more of that.
    I think in tough economic times, people want more of 
something really pleasant and will do it. I think it is very 
difficult to try to pinpoint one particular explanation for 
something as complex as drug use.
    Mr. Kucinich. I would like to hear some generalities at 
this point. Because we are having hearing after hearing on this 
matter, our subcommittee is charged with the responsibility to 
review these policies. But what we are doing is trying to get 
some fundamentals, even if it is speculative, I would like to 
hear it. Mr. Roman.
    Mr. Roman. It is a very good question and one I wish I had 
thought more about. I think what we see in looking at the 
statistics about who comes into drug court, what you are seeing 
are people who have an enormous number of problems. There is a 
lot of co-occurring mental health disorders, since people are 
to some extent self-medicating. There are a lot of people who 
have personal lives that are in absolute disarray.
    We looked at a study in Brooklyn, and I think the average 
woman who entered the Brooklyn treatment court had had four 
children and had custody of less than one. These are people who 
have, we see evidence that drug court increases income among 
people who get drug court. It increases it from like $12,000 a 
year to $13,000. So these are people who on average wouldn't 
even qualify to take a GED program.
    So, people who have just enormous structural deficits in 
their lives are the population who tend to come into drug 
court. Doug and other people can talk better about this. But 
you look at other, you look at a DWI court when you are dealing 
with alcoholics and you are talking about, you would see people 
with a different set of predictors. But at least for drug 
court, that seems to be the story.
    Mr. Marlowe. It is a matter of Darwinian evolution. Drugs 
were developed because plants needed to control the behavior of 
insects and rodents in order to have their pollen spread, in 
order to avoid predators. So they created chemicals that are 
meant to speak to our brains in ways that we like our brains 
spoken to, in ways that are fundamentally rewarding and 
eventually make you sick if you stop taking them.
    So plants that are addictive were created through eons of 
evolution to do exactly what they are doing. We are wired to 
want to feel good. We like it when certain parts of our brains 
light up. And that is why the primary motivation for drug use 
is to do the happy dance that Professor Hawken was talking 
about. Then it switches to making the withdrawal symptoms and 
the cravings go away.
    Now, the issue about the more broken the population the 
higher the rates, there are several things at work. One is 
downward drift. The more people use drugs, the less competent 
and effective they are, they get poor, they get sick and their 
families suffer and their offspring suffer as a result. So drug 
use leads to poverty as much as poverty leads to drug use.
    In addition, the more pain and disorganization people 
experience, the more they want that to go away by replacing it 
with mood altering drugs. So there are many reasons why 
addiction is so rampant. But from a Darwinian perspective, we 
should wonder why it isn't more rampant than it in fact is.
    Mr. Kucinich. Let me ask you, since you have this 
background in psychiatry, if a mother or a pregnant woman, 
rather, is an addict, is it more likely that the fetus, 
development of the fetal brain will have the kind of hard-
wiring characteristics that you talk about that creates a 
greater propensity toward addiction for that fetus?
    Mr. Marlowe. Yes and no. If a first degree relative is an 
addict, you have a 50 percent greater likelihood of developing 
addiction. That is because of genetic vulnerability.
    Mr. Kucinich. We are talking about addiction, we could be 
talking about any kind of addiction, alcohol, drugs, anything.
    Mr. Marlowe. Correct. As Melody made the point earlier, the 
drug of abuse really isn't that relevant. All drugs of abuse 
work on the brain pretty much the same way. Some are dirtier 
than others, but they are triggering the same brain regions 
that cause reward. That is basically what is going on.
    The mother who is using drugs is passing on two problems to 
her child. Actually three problems to her child. One, she has a 
genetic vulnerability that just because it is her child, her 
child will have. Two, she is modeling misbehavior for that 
child by using drugs during that child's growing up years. So 
the child has a genetic vulnerability and is witnessing the bad 
behavior.
    Third, the in utero exposure to drugs of abuse damages the 
brain, no question about it, including marijuana, cigarettes, 
particularly alcohol. So that fetus, when it is born, is now 
less capable of functioning well in society. So now it has a 
genetic vulnerability, bad modeling from mom and dad, and it 
can't function as well as his friends and other colleagues. So 
it is a triple threat. You do not want a mommy or a daddy using 
drugs. It is the last thing in the world you want.
    Mr. Kucinich. Mr. Abrahamson.
    Mr. Abrahamson. Mr. Chairman, I don't have the background 
to speak to the social predictors of who uses drugs or who 
becomes addicted. But I can speak to the social predictors of 
who uses drugs and becomes an offender within the criminal 
justice system. I think the leading social predictor for that 
is poverty, lack of resources.
    For people with means, for people with money, people who 
can afford drug treatment in the community, those people do 
whatever they can to keep themselves, their family members, out 
of the criminal justice system and to provide substance abuse 
treatment when it appears that such treatment is needed. We 
have resorted to using the criminal justice system for 
providing treatment to those without means. So we have 
essentially a two-tiered system.
    I think the recent reforms in health care, which seek to 
assure that private insurance provides insurance for substance 
abuse treatment on par with other medical conditions is an 
important background fact for this entire discussion that 
places substance abuse and addiction squarely within the health 
sector. And it is for the people without means that we resort 
to the criminal justice system to provide what ought to be 
provided in the community. Thank you.
    Mr. Kucinich. Ms. Heaps.
    Ms. Heaps. It is a wonderful question, Mr. Chairman. We 
take drugs because we want to feel better, we want to relax, we 
want to get energy, any thousand reasons why we take drugs in 
this country. And I am so glad we are talking about alcohol. We 
have to understand that our fascination with alcohol in this 
country is generations and centuries old.
    There is a new book out called The Last Call, and I 
recommend it to everybody. The Last Call. It has actually 
gotten quite good reviews, and it really is looking at alcohol, 
its policy over the last two centuries. It is an amazing 
discussion of how we have come from women who were WCTU 
individuals, because their families were being broken up 
because of the degree of alcoholism, and the United States, 
when we were awash with alcoholics, to the amendment which 
absolutely said we couldn't drink at all to where we are today.
    So there are reasons why we either sensationalize drug and 
alcohol use and make it a Hollywoodesque approach. Or we are 
embarrassed by it, and say, oh, we don't want to be purists, we 
don't want to be WCTU, we are going to put it in the closet. Or 
we say, medical marijuana seems to be OK, and we don't put the 
rigorous test of what that means and how it is dispensed in the 
same way we do other medications for illnesses.
    It seems to me, until we come up with a public health 
approach to drug use and addiction, just as we did to cigarette 
use, until we get messages out that, yes, taking drugs is 
really maybe a potentially dangerous, dangerous game, and you 
need to understand the consequences of it, you need to 
understand the effects of it. It needs to be on the media. We 
need to approach it just like we did cigarette use.
    I think until we get to that place in our society, we are 
not going to be able to tackle this problem. It is in some ways 
an infectious disease. The more you see people use it, the more 
they seem to be excited by it, the more, the kids in high 
school are trying it and getting high and isn't that fun, and a 
little bit here and a little bit there. But we don't know what 
their genetic deficiencies are. We don't understand when that 
initial poor judgment on drug use is going to trip into perhaps 
a more serious abuse and even addiction.
    So I really do think we need to take a real look at our 
drug policy and start to very seriously say, drug use has 
consequences, and Americans, we need to know what those 
consequences are. It is and can be a very devastating disease.
    Mr. Kucinich. Professor Pollack.
    Mr. Pollack. I want to make a general comment and a 
specific comment about prenatal substance use, which you 
mentioned. I think as a general comment, the use of 
intoxicating substances is really very deeply embedded in our 
culture and our economy. I think the alcohol issue is so 
profound in every area of public health and public policy. It 
is striking, actually, I realized at some point I knew very 
little about marijuana. I had done all this public health and 
criminal justice research, and for most of the issues that I 
studied, alcohol was so critical and marijuana was a little bit 
less critical, although it is also a significant issue. But 
alcohol just comes up so often.
    When people use intoxicating substances, they sometimes 
lead to problems in their lives. You go to college, you drink a 
lot at parties and you graduate, and then you realized you 
can't get hung over and go to work the next morning. Most 
people have cues in their lives that allow them to stop using 
at that point, or to reduce the use so it is not harmful. Some 
people, either due to genetics or because of their life 
circumstances are such that they don't generate sufficiently 
powerful ways to control that use, and they have use disorders. 
Those are the people that end up in our treatment.
    But I think there is a much broader issue about how do we 
reduce or control things like alcohol that are just out there, 
normative, tobacco another one.
    On prenatal substance use, I think the most serious issues 
that we need to focus on are really two-fold. One is, for most 
of these substances, the most serious biological issue is that 
they are going to increase how much mom uses alcohol. One of 
the ironies in the cocaine debate was that biologically, the 
cocaine wasn't all that harmful to the fetuses. But these moms 
were doing a lot of alcohol use and other things during 
pregnancy that were embedded in the cocaine use that created an 
issue.
    The second issue of course is, it is really hard to take 
care of your baby if you have a drug use disorder. And a lot of 
these infants are quite healthy when they are born. But then 
the question comes in, how do we take care of that child. So we 
have to be very careful, one of the ironies in the cocaine 
debate was, we really stigmatized a lot of these infants as 
biologically damaged. But the real damage was pediatric, it 
wasn't obstetric. It was, how do you take care of this 
basically physically healthy baby if mom has a cocaine 
disorder.
    So I think that there are changes to the brain in utero and 
so on. But we have to be a little bit careful about that. 
Because the real issue is just who is going to take care of 
this child after that child is born. Most of these kids are 
quite capable of leading very healthy lives if they are raised 
with the resources and the nurturing that they deserve.
    Mr. Marlowe. I am sorry, I can't let that go unchallenged. 
There were a lot of assumptions about crack babies and all 
kinds of terrible things that were going to happen that didn't 
occur. So therefore, everybody has breathed a sigh of relief 
and said that there is no damage.
    I can assure you, Mr. Chairman, you would not be the 
chairman of this committee if your mother was smoking marijuana 
or using cocaine when you were in utero. Because you would 
probably on average be about 5 to 6 IQ points lower. And that 5 
to 6 IQ points would make you much less adaptive to the world 
as it is.
    Mr. Kucinich. Given that I am a Member of Congress, I am 
not going to comment on that. [Laughter.]
    But I appreciate your generosity.
    Mr. Marlowe. The point is that we are seeing that the 
disruption occurs after fourth grade, probably sometimes closer 
to fifth, sixth, seventh grade. Disinhibition, lack of 
attention, lower IQ. There is no question about it.
    Mr. Kucinich. There is a lot of research available in the 
Journal of Endocrinology and other places where, if a pregnant 
woman consumes a lot of alcohol, the potential for, for 
example, the neuroendocrine system to be adversely affected is 
possible. There are some studies that would suggest that.
    I know that Professor Hawken has a plane to catch. And if 
you are flying out of BWI, based on my experience, if your 
flight is at 8 o'clock, this would be a perfect time for you to 
leave. Is there anything that you wanted to add before you are 
excused? And if there is anybody else that has any flight 
arrangements that would require that you leave right now.
    Ms. Hawken. I do have one final comment, and I would like 
to thank you for mentioning one of the recommendations that I 
never made it to today. That was the use and abuse of evidence-
based practices and how weak our evidence base really is.
    But the last recommendation I would implore you to take 
seriously as I fly out of the room, quite literally, is to try 
to encourage truly independent evaluation. To grow this 
research field, we really have to do more good research. I am 
saying this because I was an evaluator of Proposition 36. And 
the State agency that was being evaluated under Prop 36 also 
oversaw the evaluation.
    We really have to make sure we have truly independent 
evaluations and try to find some way of separating the task of 
evaluation from the organization that is being evaluated. That 
is something that happens all the time, and we are never going 
to improve the field. The evaluations that came out of those 
studies where the evaluated is being evaluated are always much 
higher. They never look bad, because they control the 
dissemination of information, which is not good for the field 
at all.
    Mr. Kucinich. I appreciate your testimony and the 
subcommittee will be in touch with you regarding some followup 
questions that we have.
    Ms. Hawken. Good. Thank you very much for your time.
    Mr. Kucinich. For the rest of the panel, if you could just 
remain for a few more minutes, because I have a number of other 
questions, if you have the time. Why don't we just agree that 
no matter what, by a quarter after 6, can all of you stay until 
then? And I know there are people in the audience who have to 
go and have been very patient. It has been a long day here 
already.
    I want to go to Dr. Marlowe and Dr. Roman. Both of you 
support the expansion of drug courts to enroll offenders with 
more serious drug abuse problems and criminal histories. 
However, it appears that drug court clients in these 
populations may have different needs, and hence that drug court 
operations must also change to meet them.
    What does the research have to say about the effectiveness 
of the current drug court model in meeting the needs of these 
offenders? And does more research need to be conducted on the 
issue? You can answer that now that Professor Hawken is gone. 
[Laughter.]
    Mr. Marlowe. The drug court model was built for the high 
risk addicted offender in mind. That is what the 10 key 
components was built for. The weak link in drug court practice 
is treatment. That is where the weakness is. Many drug courts 
can only draw from outpatient programs that have a handful of 
hours a week to provide service. You need to be filling 40 to 
70 percent of a high-risk addicted offender's time with 
treatment and vocational and other services. That is really 
where the biggest weak link is. Probation is already suited to 
the job. The judiciary is already suited to the job. It is in 
the clinical services.
    Mr. Roman. I would just add to that, I think one of the 
things that I see when I go to drug courts is that I think they 
don't take the, one of the things people always say about drug 
courts is if you have seen one drug court you have seen one 
drug court. And they are all different. When we did our study, 
we got 23 drug courts and they are all over the map in terms of 
outcomes. There is very little standardization. NDCI has done a 
terrific job trying to provide training to try and get drug 
courts to read from the same sheet of music. I think they have 
been effective, but there is a long way to go there.
    One of the things that we find is that the sanctioning 
model that comes out of HOPE is the sanctioning model that 
comes out of drug court. It gets applied very haphazardly in 
drug courts in a lot of places. If you are going to work with a 
more serious population that is of higher risk to the public 
from being treated in the community rather than being 
incarcerated, then you have to take very seriously the piece of 
drug court that is most effective at managing their behavior. 
That is graduated sanctions.
    So the one thing that I advocate is that we need to start 
saying, we find these great pieces of research like what Doug 
found with the relationship between high-risk offenders and the 
judge. Then what we have to do is set up some sort of mechanism 
that credentials drug courts that use those best practices. It 
has two advantages. One is that it is an easy place to go for 
them to get information about what works.
    The second thing is, we don't have to continue to say, wow, 
we need to do more drug court evaluation. All we need to do is 
for you to demonstrate that you adhere to best practices. Then 
when you go to your county commissioners for additional 
funding, you don't have to pull out a drug court evaluation. 
You just say, I have this, I have been accredited, I have been 
certified, whatever the thing is.
    Mr. Marlowe. I second that. That is exactly what we need to 
do.
    Mr. Kucinich. Professor Pollack, in a paper you co-
authored, you report that you find the fact that only one third 
of Prop 36 clients completed treatment, encouraging given 
comparative outcomes from other criminal justice referrals, and 
the fact that the sanctions for not completing treatment were 
not severe. Some point to this one third number as a 
disappointment and a prime motivating factor to the failed 
attempt to modify the program.
    Why should this be considered a success? I would also like 
to have Mr. Abrahamson reply to that.
    Mr. Pollack. Others here know more than I do about Prop 36. 
I would say, if I were to design an optimal public policy, I 
would have a more, I would have a deeper infrastructure than 
they have been able to establish in Prop 36. Clearly, there is 
a significant management challenge of that number of people and 
how do we really sort through it, as Angela discussed, how do 
we really sort through it to find the appropriate people.
    Given some of the shortcomings of the program, when I look 
at the outcomes, they are not bad. There were a lot of people 
who were effectively served through Proposition 36, even though 
it was not a particularly, it was a policy that was not 
implemented in the way that drug courts over time can be done.
    If you look at traditional treatment programs, a lot of 
people don't finish treatment in all the treatment modalities. 
So we have to take that one-third number and keep it in some 
perspective.
    I will let others comment.
    Mr. Kucinich. Mr. Abrahamson, do you want to comment on 
that?
    Mr. Abrahamson. Yes, thank you, Mr. Chair.
    The one-third figure, three comments. First, the one-third 
figure of successful completion of treatment in Prop 36 is on 
par with the completion rates in drug courts and other criminal 
justice interventions and the UCLA study says as much. Now, 
there is a separate, slightly different issue also involving 
the term one-third or one-fourth which is the no show rate of 
people who agreed to participate in Prop 36 but never showed up 
to treatment.
    Now, that no-show rate, there are three points to that. 
First, again, that would be on par with the data that we have 
for other criminal justice interventions of who agrees at first 
to accept that intervention and doesn't show up. But the 
second, more important point is, when that figure was published 
by UCLA, counties around California stood up and said, that 
just doesn't resonate with us. Our experience with Prop 36 was 
quite different.
    So they went back and they looked at the data that UCLA had 
used about the no-shows. And they discovered a couple of 
things. First, that no-show data included people who, after 
accepting Prop 36 treatment, changed their minds and said, no, 
sentence me to the traditional incarceration term that I would 
be subject to without diversion. That number also included 
people who had pending court actions and who were rendered 
ineligible for Prop 36 because they had another court case in 
the system.
    That no-show figure also included people who participated 
in drug treatment programs not funded by the counties, namely 
veterans, who received treatment through the VA system, and 
persons with money who could pay for their own treatment 
outside of the county system. Those people went to treatment, 
completed treatment but were listed as no-shows in the data.
    When the data for L.A. County was recalibrated to take 
account of each of those categories, the no-shows dropped from 
45 percent in 2001 to 6.7 percent. And for 2002-2003, the no-
show rates dropped from 35 percent to 2.6 percent. Those are 
critical drops. So I would suggest that the data that was 
published on that issue was deeply flawed.
    One last comment. Prop 36 has not and likely will not meet 
its full potential, providing adequate treatment to people in 
the system. By the law's own terms, people are to be assessed 
according to their treatment needs and placed in the 
appropriate treatment. So a person who is not addicted to drugs 
should not be receiving traditional drug treatment through Prop 
36. And those that are deeply addicted and need inpatient 
treatment should receive that.
    That promise has not been met in Prop 36 for the chief 
reason that starting in 2005, Prop 36 became dramatically 
underfunded. According to the legislative analyst's office and 
the Little Hoover Commission in California, adequate treatment 
funding for Prop 36 should be set at 2008 levels of $220 
million a year. Instead, in 2007, Prop 36 was cut from $120 
million to $100 million. And last year it was cut to $30 
million. And this year, funding for Prop 36 might be cut 
altogether.
    And so that is the situation we find ourselves in. Thank 
you.
    Mr. Pollack. Could I just quickly add that the State and 
local budget crisis is so fundamental to everything we are 
talking about. I get the sense that drug policy, we have health 
reform coming in 2014 in a big way. And until 2014, we are 
really going to struggle, because States and localities just do 
not have the funds to do services. And substance abuse and 
mental health services are precisely the kinds of things that 
are getting very deep budget cuts all over the country.
    I think we actually all have a really strong degree of 
consensus about a lot of the programs that need to be done. I 
think these are just not going to be funded at the level that 
they need to be funded, particularly as stimulus funds run out. 
The budget crisis in Illinois, California and many other States 
is just killing a lot of programs that have a strong evidence 
base. That hasn't come explicitly today, but it is fundamental.
    Mr. Kucinich. One of the things that I noted in Ms. Heaps' 
testimony, which really went the distance toward addressing 
some of these underlying economic issues, where I think you had 
talked about preparing for the impact national health care will 
have on making treatment services available, I think that you 
really spoke directly to a mechanism that could change 
everything as far as, if we are talking about a public health 
crisis here, if we are talking about a disease-based approach 
to drug abuse, at least for the ones who aren't socially 
regressive patients, then I think your testimony was right on.
    Mr. Heaps. Thank you, Mr. Chairman. Yes, I absolutely 
believe it will be a fundamental shift, with one modification. 
With all the promise of national health care, and therefore the 
eligibility of individuals who essentially are offenders, not 
eligible for Medicaid, etc., and not eligible therefore for a 
significant funding stream for treatment. When that becomes 
available, it still has to be integrated into the justice 
system. And the fact that we don't yet, have not put in place 
the right infrastructure to help make that available is really, 
really critical.
    So one of the challenges for national health care policy is 
to look at how that will be delivered to people who are under 
the jurisdiction of the system, so that the courts and other 
members of that system have access to the services for those 
individuals. That infrastructure needs to be put in place. 
Whether we call it specialty managed care----
    Mr. Kucinich. As the person who with John Conyers actually 
wrote the bill, H.R. 676, I took note of what you said, and I 
take further note of your comments now about fitting that 
particular population into the program. It is very well taken 
and it could be a fundamental part of trying to get real care 
delivered for people who have this difficulty.
    I am going to ask each one of you to just give me a kind of 
a wrap-up statement about the direction you would like to see 
us go in. But before we do that, I was struck by the response 
of Dr. Marlowe, when you were talking, I had asked the 
question, why do people do this, why do people go for drugs. 
You gave a very learned response with respect to Darwinian 
evolution. This is where, as chairman, my staff gives me a 
whole list of questions. Occasionally somebody says something 
and it gets me thinking and I may not have a chance to ask this 
question again.
    If you on one hand, a philosophical output of Darwinian 
evolution is determinism. On the other hand, there has been a 
lot of research in the last few decades on concepts that deal 
with brain plasticity. A principle of evolutionary biology 
which is called punctuated equilibrium, where the species 
develops very quickly and rapidly, breaking out of a linear 
progression, going kind of into an upward spiral.
    My question to you is, do you foresee, is there a 
potential, based on your research and understanding of 
psychiatry, the science of the brain, that human beings have 
the capability of evolving beyond this desire for this level of 
gratification? Or is this just where we are?
    Mr. Marlowe. That sounds like a term paper I might have 
assigned to my graduate students. [Laughter.]
    It is actually a very good question. Because I didn't mean 
to suggest, although I am a Skinnerian behaviorist by 
background, if you couldn't figure that out, I didn't mean to 
suggest that the seeking of pleasure and dispelling pain are 
the be all and end all of human behavior and cognition. We are 
capable already of higher aspirations than that. We are capable 
of not engaging in immediate pleasure for greater good that 
doesn't actually come back to us. We have now proven altruism 
exists.
    Mr. Kucinich. This is important to hear this. I will tell 
you why. Because there are a number of Members of Congress that 
when we talk about the kinds of challenges that people face, 
whether it is alcoholism or hard drug abuse, they will cite the 
value of faith-based initiatives. And I understand that. And I 
understand the idea of the human spirit having the potential to 
actually leap over a whole series of consequences and 
transform.
    Mr. Marlowe. Right.
    Mr. Kucinich. Would you comment on that? Because I want to 
make sure that those who have been watching this, and it does 
go to a Webcast, aren't left with the idea that we are just 
hard-wired.
    Mr. Marlowe. There are many roads to recovery. I think this 
is the best way I can answer the question. There are people who 
never get that spark. The people from the 12-step community 
call it a spark where they just all of a sudden, there is a 
realization, there is something they feel that they have 
touched and they are different people. Thank God for the people 
who experience that spark. Where it comes from, I can't answer. 
I don't know if it is biochemical or spiritual, I don't know.
    I also know that there are a lot of people who got better 
and didn't experience anything remotely resembling a spark for 
20 or 30 years after sobriety. So if you are saying that 
everybody has to have a spark to get better, you are going to 
be damning a lot of people to terrible pain. On the other hand, 
if you discount this faith-based community and these faith-
based principles, you are also going to be damning a lot of 
people to pain.
    Mr. Kucinich. So there are variable factors on the road to 
recovery?
    Mr. Marlowe. Exactly. I think that is right.
    Mr. Kucinich. And you wouldn't discount any of them?
    Mr. Marlowe. Absolutely. Just talk to people from AA. You 
will hear something very powerful.
    Mr. Kucinich. I appreciate your taking a moment so that we 
could engage in a colloquy about that.
    Why don't we start with Professor Pollack. If you would 
just, based on your career and your research, if there is 
anything you would like to put on the record as a closing 
comment that would guide the deliberation of this committee on 
national drug policy.
    Mr. Pollack. I think that all of us today expressed many 
common elements of what needs to be done. What I would like to 
see is a real focus on being evidence-based, providing the 
resources to do it, and really paying careful attention to the 
public management and implementation challenges that need to be 
addressed to do it well. I think that is going to be 
fundamental in our success.
    Ms. Heaps. Let me build on that statement. I concur 
completely. We have to look at the total justice system, from 
arrest all the way through parole. At every point, there is an 
opportunity of intervention which builds exactly on what 
Professor Pollack talked about, with appropriate interventions, 
appropriate evidence-based practices. There is no silver bullet 
program. Every court should have elements of a drug court. 
Every criminal court ought to be able to refer people into 
treatment and have available to them assessment diagnosis, 
court reporting and compliance issues.
    So there has to be a systemic approach in which we can 
bring to scale the numbers of people who are being put into 
various levels of intervention or acute treatment, so that we 
really grasp and get at the issue of reducing the numbers of 
people who are addicted or using drugs or under some level of 
influence by drugs and therefore reduce the impact on the 
justice system and the cost to our communities.
    Mr. Kucinich. Mr. Abrahamson.
    Mr. Abrahamson. My focus for today's hearing would be 
simply that the criminal justice system cannot adequately 
address the needs of the 1.4 million people arrested every year 
for simple drug possession. We need to focus on when those 
people first come into contact with the criminal justice 
system, typically a police officer on the beat. That we figure 
out a way to keep people who have used drugs and may have a 
drug problem, but have not caused harm to other individuals, 
how to keep them out of the criminal justice system and provide 
the services or treatment that they need in the community, and 
then use the criminal justice system to deal with the offenders 
who actually deserve to be in the criminal justice system. 
Thank you.
    Mr. Marlowe. I would just reiterate what we have already 
said, which is that we need to move away from programs to 
systems, and to continuum in the criminal justice system. We 
actually do know what the elements of an effective system would 
look like. We have just never ever done it. And I think that 
Melody's idea about moving pilot funding toward system 
development is exactly on the money. I always turn to Melody 
Heaps for the policy implications of science, because she knows 
how to make that translation.
    But the reality is, we can't put everyone in drug court, 
nor should we. We can't put everybody in project HOPE. We can't 
put everybody in Prop 36. We need something like a TASC model 
of assessment, placement, monitoring at the systemic level. I 
think we are there. I think the time has come to do that.
    Mr. Roman. Four points in 30 seconds. One way to do that is 
to start talking about reducing crime in drug use and stop 
talking about recidivism. Talking about recidivism makes us 
think small. If you want to do something about drug policy and 
reduce crime, you have to talk about it in those terms.
    Second, we have to start standardizing practice. The do 
anything you want anywhere thing, we know too much to keep 
doing that. We don't want to stifle innovation, but we have to 
start getting drug courts and these other alternatives to 
incarceration programs to implement best practices that we know 
exist. We have to start doing something HOPE-like, because of 
the budget pressures that the States are under. We have to 
start finding cheap solutions to these problems. What HOPE does 
is it makes the defendant signal to the court how they are 
going to do. What could be cheaper than that?
    Then finally, what we do when we do those things is to take 
the money that we would have spent on those people in the court 
system, in the processing and take it off the table and 
redirect it to more expensive things like drug court. Because 
if we just wait for the end of the day for project HOPE to 
leave money in the budget, it won't be there and we will never 
be able to use it. We have to do it up front.
    Thank you for having me testify.
    Mr. Kucinich. Your last point is very well taken in this 
era of cost-consciousness. It is actually cost-effective, as 
you are pointing out, by far.
    I am very grateful to each member of this panel and to Dr. 
Hawken as well as to our first set of panelists for the time 
that you spent here today. What I am going to ask my staff to 
do is to gather this transcript, to take your testimony and 
gather this transcript as quickly as possible and to see if we 
can find a means of editing it for publication and getting it 
distributed as quickly as possible to Members of Congress and 
the community beyond. The papers that you delivered to the 
committee were very important. You have absolutely proven the 
urgency of your testimony to this committee. Each of you has 
experience which is quite valid in the larger sphere of drug 
policy, its effectiveness or lack thereof.
    So the subcommittee staff will continue to be in touch with 
you.
    I want to thank the minority staff for their presence and 
for the participation of Mr. Jordan as well as our own staff of 
the majority for helping to schedule this hearing.
    This is the Domestic Policy Subcommittee of Oversight and 
Government Reform. I am Dennis Kucinich, Chairman of the 
subcommittee. Today we have talked about Quitting Hard Habits: 
Efforts to Expand and Improve Alternatives to Incarceration for 
Drug-Involved Offenders. We have had a distinguished list of 
witnesses.
    This subcommittee will continue to reserve jurisdiction 
over all matters affecting the Office of National Drug Control 
Policy and drug control policy generally. We will do so, 
gratefully with the assistance of our panelists. I want to 
thank, again, each and every one of you.
    This subcommittee stands adjourned.
    [Whereupon, at 6:18 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5558.100

[GRAPHIC] [TIFF OMITTED] T5558.101

[GRAPHIC] [TIFF OMITTED] T5558.102

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
